<html>
<title> - ANTICIPATING AND PREVENTING DEADLY ATTACKS ON EUROPEAN JEWISH COMMUNITIES</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                      ANTICIPATING AND PREVENTING


                           DEADLY ATTACKS ON


                      EUROPEAN JEWISH COMMUNITIES

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-2-3]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                             


                   Available via http://www.csce.gov
                   
                
                   
                              _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 99-941 PDF                 WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                   
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi,
Chairman                             Co-Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            RICHARD BURR, North Carolina
STEVE COHEN, Tennessee               JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                TOM UDALL, New Mexico
RANDY HULTGREN, Illinois             SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                              

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                                  


                      ANTICIPATING AND PREVENTING
                           DEADLY ATTACKS ON
                      EUROPEAN JEWISH COMMUNITIES

                              ----------                               
December 16, 2015

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Roger Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Alan Grayson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11
Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    21

                                 MEMBER

Hon. David Schweikert, Representative from the State of Arizona..    10

                               WITNESSES

Rabbi Andrew Baker, Personal Representative of the OSCE Chairman-
  in-Office on Combating Anti-Semitism, and Director of 
  International Jewish Affairs, American Jewish Committee........     5
Jonathan Biermann, Executive Director, Crisis Cell for the 
  Belgian Jewish Community (via videoconference from Brussels, 
  Belgium).......................................................     8
John J. Farmer, Jr., Director, Faith-Based Communities Security 
  Program, Rutgers University....................................    12
Paul Goldenberg, National Director, Secure Community Network.....    17

                                 [iii]
                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    38
Prepared statement of Hon. Roger Wicker..........................    40
Prepared statement of Hon. Benjamin L. Cardin....................    41
Prepared statement of Rabbi Andrew Baker.........................    42
Prepared statement of Jonathan Biermann..........................    46
Prepared statement of John J. Farmer, Jr.........................    48
Prepared statement of Paul Goldenberg............................    52


                      ANTICIPATING AND PREVENTING



                           DEADLY ATTACKS ON



                      EUROPEAN JEWISH COMMUNITIES

                              ----------                              


                             April 19, 2016

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1 p.m. in room 210, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Roger 
Wicker, Co-Chairman, Commission on Security and Cooperation in 
Europe; Hon. Steve Cohen, Commissioner, Commission on Security 
and Cooperation in Europe; Hon. Alan Grayson, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Randy Hultgren, Commissioner, Commission on Security and 
Cooperation in Europe.
    Member present: Hon. David Schweikert, Representative from 
the State of Arizona.
    Witnesses present:  Rabbi Andrew Baker, Personal 
Representative of the OSCE Chairman-in-Office on Combating 
Anti-Semitism, and Director of International Jewish Affairs, 
American Jewish Committee; Jonathan Biermann, Executive 
Director, Crisis Cell for the Belgian Jewish Community (via 
videoconference from Brussels, Belgium); John J. Farmer, Jr., 
Director, Faith-Based Communities Security Program, Rutgers 
University; and Paul Goldenberg, National Director, Secure 
Community Network.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And good 
afternoon to everyone. Thank you for being here this afternoon.
    I'd especially like to thank our witnesses: Rabbi Andy 
Baker, Personal Representative of the OSCE Chairman-in-Office 
on Combating Anti-Semitism and the director of international 
Jewish affairs for the American Jewish Committee; Jonathan 
Biermann, who will join us shortly, executive director of the 
Crisis Cell for the Belgian Jewish community, who will testify 
by way of video link. And then we will also hear from Attorney 
General John Farmer, who currently serves as director of the 
Faith-Based Communities Security Program at Rutgers, and much 
more; and Paul Goldenberg, director of the Secure Community 
Network. So four outstanding experts to provide insights and 
counsel to the Commission.
    Today we will discuss how to anticipate and prevent deadly 
attacks on European Jewish communities. The recent terrorist 
attacks in Brussels were reminders that Europeans of all 
religions and ethnicities are at risk from ISIS. But there can 
be no European security without Jewish security. As we have 
seen so many times in so many places, violence against Jewish 
communities often foreshadows violence against other religious, 
ethnic, and national communities.
    ISIS especially hates the Jewish people, and has instructed 
its followers to prioritize killing Jewish men and women. The 
group's cronies targeted the Jewish Museum of Belgium in May of 
2014, the Paris kosher supermarket in January of 2015, and the 
Great Synagogue in Copenhagen in February of 2015, and murdered 
people in all of those vicious attacks. Some thwarted plots 
have revealed plans to target even more Jewish community places 
and kill even more Jewish people. Other Islamist terrorist 
groups share its hatred and its intent.
    However, terrorists and terrorism only account for some of 
the annual increases in violent anti-Semitic attacks in Europe. 
And over the past few years, surveys and crime data show that 
anti-
Semitic attitudes and violence in Europe are most rife in 
Muslim communities. Anti-Semitic attitudes and non-terroristic 
anti-
Semitic violence have also risen across the religious, 
political and ideological spectrum.
    There are many different aspects of combating anti-Semitic 
violence. For example, European Jewish and Muslim civil society 
groups are collaborating with each other to counter violent 
extremism and hatred that impacts their respective communities. 
Today's hearing will zero in on the role of law enforcement 
agencies and especially on their relationship with Jewish 
community groups. These partnerships are essential, according 
to Jewish communities and experts on both sides of the 
Atlantic. That is why I authored House Resolution 354 as a 
blueprint for action and why the House passed it unanimously 
last November.
    Our witnesses will testify today about what European law 
enforcement agencies, their governments, and Jewish community 
groups need to do to ensure these partnerships are formalized 
and are effective. They will discuss the ideal roles for the 
OSCE, the United States, and other civil society groups in 
supporting these initiatives. The witnesses will also share 
what can be learned from the experiences of law enforcement 
agencies and Jewish communities to counter terrorism and 
strengthen public safety more broadly. Their insights will help 
guide the efforts of the U.S. Government, the Congress, and my 
fellow Helsinki commissioners, especially Commission Co-
Chairman Roger Wicker and Ranking Member Senator Ben Cardin, 
who has been the Special Representative on Anti-Semitism, 
Racism and Intolerance for the OSCE Parliamentary Assembly 
since last March.
    I'd like to now yield to our distinguished chairman, Roger 
Wicker.

  HON. ROGER WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Thank you, Mr. Chairman. Thank you for calling 
this very important and timely hearing.
    The Holocaust ended nearly 71 years ago. In his important 
book ``1944,'' author Jay Winik once again recently reminded 
readers of the horror of the Holocaust, and I think made a 
great contribution to the historical perspective on the issue 
of anti-Semitism and all of its extremely, extremely horrific 
ramifications. It's appalling that today people are still being 
attacked and murdered because they're Jewish.
    Anti-Semitism is part of the Islamic State's brutal 
ideology. It's an official part of their thought. The terrorist 
organization's followers have already shown their willingness 
and ability to target and kill members of European Jewish 
communities. They join other jihadi groups, like al-Qaida, who 
kill innocent people because of their religion, ethnicity or 
race.
    But terrorists are not the only violent threats to European 
Jewish communities. Others also contributing to anti-Semitic 
violence include neo-Nazis, nationalist political forces that 
exploit historical anti-Semitism, ideologues who invoke the 
Israeli-Palestinian conflict to justify anti-Semitic action, 
and other disaffected individuals.
    I must also point out that the Russian Federation continues 
to fund extremists and anti-Semitic parties, like the National 
Front in France. At the same time, some of my Russian friends 
and some of our Russian colleagues in the OSCE Parliamentary 
Assembly come to official meetings and time and again falsely 
accuse some of their Baltic neighbors and our NATO allies of 
being part of fascist or anti-Semite regime. And so I'd only 
point out that not every accusation of anti-Semitism and 
fascism is well-founded. We must be careful in listening 
actually to the facts in regard to these charges.
    I've been honored to collaborate on these issues with my 
longtime colleague and friend Senator Ben Cardin, ranking 
member of this Commission and special representative on anti-
Semitism, racism and intolerance for the OSCE's Parliamentary 
Assembly. We led Resolution 290, entitled ``Commemorating the 
75th Anniversary of Kristallnacht, or the Night of the Broken 
Glass,'' which the Senate passed unanimously. The resolution 
reaffirms America's steadfast commitment to remembering the 
Holocaust and eliminating the evil of anti-Semitism.
    As chairman of the OSCE Parliamentary Assembly's Committee 
on Political Affairs and Security, I will do my part to help 
ensure that combating anti-Semitism is integrated into OSCE 
initiatives against terrorism, as well as against violent 
extremism. I will also continue to monitor Russia's outrageous 
exploitation of the issue of anti-Semitism.
    So, Mr. Chairman, thank you very much for convening this 
important hearing, and I look forward to hearing from our 
witnesses.
    Mr. Smith. Chairman Wicker, thank you very much.
    Commissioner Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chair. I just appreciate your 
having the hearing. I'm always in favor of the hearings that 
the chairman chooses to have testimony on, and this is an 
important one. And to serve--to be here with Roger Wicker, one 
of the really good guys in the Congress.
    But I appreciate--I've read your bios. You all have all 
done a great deal in your professional lives. I thank you for 
committing your experience and your knowledge to this issue, 
and I look forward to hearing your recommendations and some 
reportage of things maybe I didn't know that have occurred. I 
know that it's--ISIS can target Jewish people, but there's the 
neo-Nazis and all that. And Jews have always been a prime 
target, maybe for the longest time ever of any group that's 
been a target of terrorism and hate and prejudice.
    And so I want to lend my voice when I can to this effort. 
Thank you.
    Mr. Smith. Thank you very much, Commissioner Cohen.
    I'd like to introduce to the Commission people who need no 
introduction, who have done so much for so long on combating 
anti-Semitism, beginning first with Rabbi Baker, Andy Baker, 
who has been one of the most important figures in combating 
anti-Semitism and addressing Holocaust-era issues over the past 
few decades. He was first appointed as Personal Representative 
of the OSCE Chairman-in-Office on Combating Anti-Semitism in 
2009, and every subsequent chair-in-office has reappointed him. 
He has been the director of international Jewish affairs for 
the American Jewish Committee since 2001 and with the 
organization since 1979. He has served in senior leadership 
roles in many initiatives, and has been publicly commended many 
times, including by heads of state in countries like Germany, 
for his efforts.
    I would note parenthetically that when the OSCE put 
together the all-important meetings on combating anti-Semitism, 
probably one of the most important ones of all was the Berlin 
Conference. And one of the co-authors of the Berlin 
Declaration, especially when we ran into some snags and some 
member states that were recalcitrant about what should be 
included, Andy Baker was the wordsmith who found the right 
wording that advanced that all-
important declaration. And so all of us deeply appreciate his 
leadership there as well.
    We also will be hearing from Jonathan Biermann, who is the 
executive director of the Crisis Cell of the Belgian Jewish 
community and was in charge of the Cell at the time of the 
attack on the Jewish Museum in 2014. A lawyer by profession, he 
has been a member of the City Council in a municipality in 
Brussels since 2012 and is currently an alderman on the 
Council. Mr. Biermann is a former political adviser to the 
president of the Belgian Senate, the minister of development 
cooperation, and the minister of foreign affairs. He brings the 
perspective of a Brussels native and resident born into a 
family very involved in the Jewish community.
    We'll then hear from Attorney General John Farmer, who is 
currently the director of the Faith-Based Communities Security 
Program, part of the Institute for Emergency Preparedness and 
Homeland Security at Rutgers University, our state university. 
The program spearheaded a major conference last July on 
``Developing Community-Based Strategies to Prevent Targeted 
Violence and Mass Casualty Attacks'' in collaboration with the 
FBI, Department of Justice and others. He was the attorney 
general of New Jersey from 1999 to 2002, and one of the most 
effective attorney generals the state has ever had, and senior 
counsel to the 9/11 Commission. Attorney General Farmer was 
later the dean of the Rutgers Law School. So thank you, Dean, 
Attorney General, and all the other very important titles you 
have borne and done so with such dignity.
    Then we'll hear from Paul Goldenberg, who is the national 
director of the Secure Community Network, a national homeland 
security initiative of the American Jewish community. And he's 
also the CEO of Cardinal Point Strategies. A New Jersey native, 
for decades he was part of the law enforcement community, 
starting as a cop--including years of undercover work--and 
eventually as the first chief of the Office of Bias Crimes and 
Community Relations for the State of New Jersey. Paul 
Goldenberg has relevant experience with the OSCE as the former 
program manager and special advisor for the OSCE/ODIHR Law 
Enforcement Officer Training Program for Combating Hate Crimes. 
He is currently co-chair of the Department of Homeland 
Security's Foreign Fighter Task Force, vice chair of the DHS 
Faith Based Advisory Security Council, and special advisor and 
member of the Secretary of Homeland Security's Combating 
Violent Extremism Working Group.
    Finally, I am pleased to recognize the presence here today 
of Paul Miller, a member of the Board of Overseers of Rutgers 
University. Throughout his law career, he was involved in 
public safety and security initiatives, including for the 
Jewish community, and continues that important work now through 
the Miller Family International Initiative at the Rutgers 
School of Law.
    So I'd like to now yield the floor to Rabbi Baker for his 
opening comments.

    RABBI ANDREW BAKER, PERSONAL REPRESENTATIVE OF THE OSCE 
CHAIRMAN-IN-OFFICE ON COMBATING ANTI-SEMITISM, AND DIRECTOR OF 
    INTERNATIONAL JEWISH AFFAIRS, AMERICAN JEWISH COMMITTEE

    Rabbi Baker. Congressman Smith, thank you. Senator Wicker, 
Congressman Cohen, it's a pleasure to be here, even if the 
topic itself hardly brings pleasure.
    I have to say at the outset your involvement and your role, 
and going back really now years and years, have really been 
critical to identifying this issue, and in particular to really 
elevating it to the level of concern that it demands on the 
part of European political leadership.
    In my written testimony, which I am not going to read here, 
I've tried to lay out somewhat over the last 15 years sort of 
the history of essentially what has been first a problem in 
recognizing that anti-Semitism had really returned in different 
ways to the European continent--first, the problem being faced 
of the return of anti-Semitism to Europe; then, really being 
able to acknowledge the seriousness and then the source of this 
problem; and ultimately, how to address it--how to deal with 
it, it is still very much something with which we must wrestle 
and, in dealing with European governments, still to convince 
them of the seriousness of this and of the steps that should be 
taken to address it.
    The fact is that, early on, as we saw a spike--a real surge 
in anti-Semitic incidents, there were those who were dismissing 
it as not really being anti-Semitic, or being related to the 
politics of the Middle East, and therefore somehow explained 
away for that. It took a while before people realized this had 
become a new normal: physical attacks, verbal harassment. Day-
to-day life of many Jews in Europe had changed. No longer did 
they feel the normal comfort and security that had been part of 
their life.
    Further, we came to see that there were lethal attacks on 
Jewish targets and, even here, a reluctance at first to 
acknowledge what they were. We can go back to 2006 with the 
torture and murder of Ilan Halimi, a Jew in Paris, that 
initially even the government refused to consider to be anti-
Semitic. We can jump to 2012, when young students and a father 
were murdered at the Jewish school in Toulouse. And the 
perpetrator, who turned out to be a radical Islamist extremist, 
was at first thought to be a right-wing neo-Nazi figure, which 
immediately generated broad popular opprobrium for this. And 
yet, when the true source of his character emerged, the 
response was more ambivalent--a difficulty in France, but also 
in other countries to recognize that this had become now a new 
source, a new threat, certainly to the Jews of Europe, but 
ultimately, as we came to see, to Europe more generally.
    We then had and still have to confront a reality that you 
have growing minority populations in Europe, themselves victims 
of prejudice and discrimination, but who happen to harbor not 
just negative views regarding politics in the Middle East and 
Israel, but more negative views when it comes to Jews. It's an 
environment that in many cases European governments have not 
figured out how to deal with, how to confront. But as I said, 
it has eroded the day-to-day sense of comfort and security for 
many European Jews.
    Now, we have on top of this, as we've come to see, the 
lethal threats from radical Islamist terrorists. We saw this in 
Paris at the attack on the kosher market year before last, this 
one just past. We saw it following that in Copenhagen. We saw 
it at the Jewish Museum in Brussels. And again, time after 
time, governments have been slow to recognize the special 
threat--not sole threat, but the special threat--that Jews face 
from this new source of violence and terror.
    Only as short as three years ago, when I in my OSCE role 
visited various European capitals, there was a certain element 
of denial. In The Hague, talking to Dutch officials, asking 
about support for protection of Jewish communities, I was told, 
well, we can't do this for Jews without doing this for 
Christians and doing this for Muslims, and in the end we don't 
have the resources.
    I know Jonathan will speak more about Brussels, but I met 
with Belgian officials also that same year. They said, yes, we 
recognize the threat level to Jewish institutions is high; in 
fact, it's as high as the threat level to the U.S. embassies in 
Brussels or the Israeli embassy. But, they said frankly, they 
don't have the resources to give to provide protection.
    In Denmark, reflecting a concern that the Jewish community, 
when they had asked for police to be positioned in front of the 
synagogue and the school when they were in use, and the 
government said to them, sorry, but in Denmark--as they then 
told to me--we have a relaxed approach to security. We're not 
going to position guards in front of these buildings because it 
would make our citizens uncomfortable. And so it ultimately 
took the tragedy of the death--the murder of Dan Uzan, an 
unarmed Jewish volunteer security guard, to finally galvanize 
some response.
    Governments have responded by stepping up the physical 
security. There are police in front of these buildings today. 
But each government is doing it differently than another. We 
really need to look now and say: What works? What's most 
efficient? What could be carried on beyond the immediate crisis 
moment? Because clearly the resources that are needed are not 
going to be there indefinitely. Mobilizing the military, as has 
taken place in France and in Belgium, is not something that can 
be sustained indefinitely. So this is something that now must 
be addressed.
    And we have today a huge influx of refugees and migrants 
from the Middle East. Doors have been opened. It is admirable. 
And Chancellor Merkel and others who've done this should be 
praised for their openness to accepting refugees who have truly 
suffered, and suffered grievously.
    But we know and they know that many of these people that 
are coming in bring with them attitudes--there was an 
environment in which they lived where anti-Jewish, anti-
Semitic, anti-Israel sentiments were commonplace. Western 
values, for that matter, are often lacking. So there's an 
enormous challenge that these governments face if they're going 
to absorb these new refugees. And we know there's also a 
concern for what this might contribute to the problems we see 
of radical terrorists and an inability of European governments 
to really get their handle on this and figure out how to 
control it.
    I met only last week--last Thursday--in Vienna with the 
Austrian minister of justice, Wolfgang Brandstetter. He shared 
with me the reality that in Austria there are now 38 
terrorists--38 returning ISIS fighters who are in Austrian 
prisons. Two of those imprisoned came in with refugees that 
surged into Austria, and those two have ties, he said, with the 
bombers of the recent attacks in Brussels. So this is simply an 
anecdotal aside that demonstrates the very real practical 
problem European governments face.
    Jews are not the only target. Clearly, European leaders 
need to figure out how to deal with all of this, how to 
mobilize the public to be part of the process. And I know that 
my friends John and Paul will speak more to what role the 
public can play and what can be learned from the American 
experience in this regard.
    And finally, Jewish community leaders, which have stepped 
forward, which are training their own communities to have 
professionals knowledgeable about how to address security, need 
to be working cooperatively and on an equal level with law 
enforcement and intelligence agencies in their respective 
governments so there can be truly two-way communication and 
involvement. As has been pointed out, the reality is that the 
problem exists, if only in different forms, throughout the 
European continent. And an environment with a lot of economic 
uncertainty, with problems of refugees and migration--an 
environment that has clearly bolstered right-wing nationalist 
populist parties--that also adds to the uncertainty that Jews--
although not Jews alone--that Jews in Europe face when they 
look and think about their future.
    And as we know and as we've heard, today in a way this is 
something new from all of the decades since the end of the war. 
Today, European Jews themselves truly do wonder about their 
future. Therefore, it's all the more incumbent on us and on the 
role particularly that the Helsinki Commission has always 
played in elevating knowledge and understanding of these 
concerns and issues, and pushing for very practical steps such 
as physical security, which you've taken up in your resolution, 
to push for governments truly to address them.
    Thank you for this opportunity to share my thoughts with 
you.
    Mr. Smith. Thank you very much, Rabbi Baker. I would like 
to recognize--and again, thank you for your extraordinary 
leadership for decades.
    Ira Forman is among us. Thank you for gracing us with your 
presence, the special envoy to monitor and combat anti-
Semitism. He's been in that position since 2013. He is a former 
political director and legislative liaison for the American 
Israel Public Affairs Committee, or AIPAC. And thank you, 
again, Ira, for being here.
    I'd like to now yield to Mr. Biermann, who comes across, or 
comes to us, from Brussels.

  JONATHAN BIERMANN, EXECUTIVE DIRECTOR, CRISIS CELL FOR THE 
 BELGIAN JEWISH COMMUNITY (via videoconference from Brussels, 
                            Belgium)

    Mr. Biermann. Thank you, Mr. Chairman. Thank you for giving 
me the opportunity to testify, and thanks to the American 
embassy for the logistic support.
    Born and raised in a typical Jewish family in Brussels, 
I've always been used to security measures. Being a child, I 
wasn't surprised to see the police and security at the door of 
the Jewish day school, just as my almost two-year-old waves 
every day to the soldiers serving at the very same gate. And it 
is somehow a relief to the members of my community to know that 
the threat targeting Jews is taken seriously.
    Since World War II, Belgium has known multiple episodes of 
terrorist waves perpetrated in the name of different causes, 
like the Communist Combatant Cells in the 1970s. Other acts 
have targeted more specifically the Jewish community, like in 
the 1980s, when the Great Synagogue of Brussels was attacked by 
a man with a machine gun, when a school bus was targeted in 
Antwerp with grenades, and when the president of the Jewish 
Organizations Coordination Committee, Dr. Wybran, was murdered.
    In parallel, anti-Semitism has increased, and it worries 
the Brussels Jewish community, counting a little less than 
20,000 members. The reports of the Brussels-based NGO 
Antisemitisme.be show that the level of hatred has not been so 
high since 1945, with a rise of 70 percent in 2014 compared to 
2013, and with a new phenomenon against Jews, which is 
discrimination. Violence has reached an unprecedented level of 
horror, as four people were killed in the terrorist attack of 
the Brussels Jewish Museum in May 2014.
    Jewish life in Europe is part of its diversity. As we also 
know from the Fundamental Rights Agency survey, an increasing 
number of Jews feel less and less comfortable attending Jewish 
events and institutions. As a result, despite the strong 
statements and actions taken by the Belgian Government, 
including public funding for the physical protection of Jewish 
buildings and institutions, many community members feel 
uncertain about their safety and even their future in Belgium.
    ISIS strategy and operational processes are unprecedented, 
as the broader community is generally targeted and then is the 
Jewish community as well. In a way, the Jewish citizens are 
confronted to double risk in a time when security agencies and 
resources are over-solicited.
    Since January 2015, the army has deployed to protect the 
public institutions at risk, including Jewish institutions, in 
the limits of existing capacities, which will probably not be 
permanent. Is it enough, especially from a Jewish community 
perspective? I would not be able to answer the question. As you 
know, that in a community of two Jews you would find at least 
three different opinions. But the worst situation would be if 
the government--the law enforcement and security agencies--had 
no opinion at all.
    And this is why the implementation of House Resolution 354 
would make a significant difference. No need to reinvent the 
wheel, especially as this is not a time for testing, but for 
implementing improved methods. The knowledge and expertise 
exists. The Institute for Emergency Preparedness in the 
Homeland Security, the Faith-Based Communities Security Program 
at Rutgers University, John Farmer, Paul Goldenberg, and their 
international partners have built an impressive network with a 
unique capacity to share best practices in the implementation 
of the ``see something, say something'' strategy.
    Such a project would result on reaffirming and redefining 
the fundamentals of what we call in Belgium ``le vivre-
ensemble,'' living together. Obviously, this concept was not 
ambitious enough and has failed. We should have been able to 
create a model in which everyone feels he's part not only of 
his faith-based or cultural community, but also of a broader 
community, which implies rights, duties and responsibilities.
    ``See something, say something'' aims to empower community 
leadership to take their part in establishing a common project 
based on respect and mutual understanding. It is not an 
incitement to denounce members of the community, but to go 
beyond your own community, building fraternity.
    In such a context, relations established with local 
authorities and police are based on trust and confidence. On a 
practical level, communication channels, types of intelligence 
collected by each actor must be clearly defined. The protocols 
existing in the U.S., the U.K. and France should be a reference 
for local police and national law enforcement agencies, 
empowering local communities.
    The situation of local communities and their relationship 
with the authorities should be regularly assessed. Confidence 
and collaboration should guide community leadership, law 
enforcement agencies, and political leaders in the 
decisionmaking process.
    The Belgian government has decided to invest resources into 
security policies. It should include developing a new 
intelligence strategy in which communities should play a 
valuable role with respect for fundamental rights, civil 
liberties and privacy.
    As a conclusion, I would underline the necessity of 
establishing the terms of reference that European governments 
should use. International organizations and agencies are a key 
player in that matter. I personally believe that the OSCE could 
develop a platform to exchange good practices, and confront the 
approaches and strategies in fighting an external threat with 
domestic impacts and supports.
    I would, finally, formulate the following recommendations. 
First, implement ``if you see something, say something'' with 
Jewish communities as pilots. Second, empower Jewish 
communities by establishing a memorandum of understanding 
defining the collaboration between law enforcement agencies and 
Jewish communities. And third, never banalize anti-Semitism.
    Thank you very much.
    Mr. Smith. Thank you so very much, Mr. Biermann, for your 
testimony, and for your recommendations, for your leadership. I 
think the MoU is an outstanding issue, and during questions I 
would certainly ask you how well that is proceeding.
    We are joined by Mr. Schweikert and Mr. Grayson, and 
they're free, if they'd like, to say a word. We do have votes--
four five-minute votes--three five-minute, one 15-minute. We'll 
probably take about a 20-minute recess, and I apologize to our 
distinguished witnesses for that.
    David?

HON. DAVID SCHWEIKERT, REPRESENTATIVE FROM THE STATE OF ARIZONA

    Mr. Schweikert. Forgive me, but this is--just because we're 
all going to be running out the door on you to go vote--and how 
many minutes do we have right now on the votes?
    Mr. Smith. Thirteen, plenty of time.
    Mr. Schweikert. Thirteen.
    If I wanted to grab a publication that did sort of real-
time data collection of saying here's the number of incidents 
in Europe over the last year, and so I wanted to actually know 
more than discussion or anecdotal, but the curiosity of threats 
both to the Jewish community but maybe other minority 
communities, and see if it's a common front, it's--because, for 
many of us, we're trying to understand is this a cultural 
change that--is the mix changing attitudinally or 
demographically? Is that overvalued, undervalued? Where do I go 
to actually be able to keep track of here's reality? Because 
that reality should be building our policy.
    Mr. Goldenberg. From the standpoint of the Jewish 
communities--that's almost unfortunate, but it's a reality--the 
law enforcement communities of Europe are very much like the 
law enforcement communities were here in the United States 25 
years ago. When we first started to engage in what was called 
bias crimes or hate crimes, if a state did not keep good 
records and the police did not have good indicators as to what 
a hate crime was, or an attack against an institution based on 
race, color, et cetera, the records were not going to be well-
kept. So the NGOs stepped in here in the United States and did 
a remarkable job, and actually built the criteria or the 
framework that's now become almost a part of all 50 states, 
including the U.S. Government, on how to identify a hate crime 
and how to capture the data as it relates to the hate crime. So 
we're in the same place in Europe as we were decades ago.
    There are a couple of Jewish organizations, as well as some 
international human rights organizations, that keep what I 
think are extraordinary records. Because unfortunately, in some 
countries, people don't go the police. They'll go to their own 
NGOs within their own communities. So those organizations, or 
examples thereof, are the CST, which is the Community Security 
Trust of the United Kingdom. It's a Jewish security 
organization that works hand in hand with the Met Police and 
Scotland Yard. You have what's called the SPCJ in France, which 
is a similar organization. And you have organizations like 
Jonathan's and others. So there is an infrastructure for this.
    Mr. Schweikert. But is there a--sort of an abstract where 
we could keep in our office and say, look, here's the best data 
we have?
    Mr. Goldenberg. Andy, do you want----
    Rabbi Baker. Yes. Where you can go is--this is really after 
that conference in Berlin and the Berlin Declaration tasking 
governments within the OSCE to monitor and collect data on hate 
crimes. So that is----
    Mr. Schweikert. Well, I remember the discussion about it. I 
just----
    Rabbi Baker. No, but it's now collected by ODIHR.
    Mr. Schweikert. OK.
    Rabbi Baker. And, of course, it's based on what governments 
report, although they supplement it with, as Paul indicated, 
where you do have community monitors. And it's--now they even 
have a kind of interactive map on their website, so you can 
literally click on country by country and you can see what data 
they've received. So that--and we're talking about hate crimes 
generally.
    Mr. Schweikert. All right. I'm going to go now, look for it 
on the floor because we'll have wi-fi. Thank you, gentlemen.
    Thank you, Chairman.
    Mr. Smith. Thank you.
    Mr. Grayson, the gentleman from Florida.

  HON. ALAN GRAYSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Grayson. Briefly, is it better to think of fighting 
anti-Semitic attacks as a police function or a military 
function? Rabbi?
    Rabbi Baker. Well, the military has been brought in only in 
these extreme situations where they needed protection and the 
police themselves didn't have the resources. That certainly is 
not a long-term solution, and it's an imperfect short-term 
solution. I would say the issue ultimately is police need to be 
engaged, but even there the issue of security goes beyond just 
police. It goes to the larger environment and how can you make 
for a situation where you're literally not putting up a barrier 
to someone about--to a terrorist or other about to storm, but 
really to change the atmosphere more generally and to get 
people aware--again, as people have said, whether it's modeled 
after the ``see something, say something'' program that is 
being proposed here or something similar, where people are 
engaged so you don't get to that point.
    The reality is, most of the synagogues/schools throughout 
Europe, Jewish schools, require some protection. It's clearly a 
role of police. But a police that needs to be really on the 
ground and engaged with the Jewish community, not the idea that 
we have to bring in the military to provide that security.
    Mr. Grayson. Mr. Farmer?
    Mr. Farmer. Yes, I would just echo Rabbi Baker's comments 
and point out that the structure in terms of the relationship 
between the police and the military differs from country to 
country. And so that kind of structure, that kind of approach 
simply can't do the job of anticipating and preventing these 
attacks. By the time you call the military in, it's too late; 
the attacks have already happened. So what our work in Europe 
has demonstrated to us--and I think it's applicable across the 
ocean, too--is that you have to engage the community at every 
level in order to deal with the threat as it's evolved.
    Mr. Grayson. Mr. Goldenberg?
    Mr. Goldenberg. Yes, I can only echo what my fine gentlemen 
have stated here. Exactly as John indicated, once the military 
is there, it's too late. It has to be a police function. And 
that's really been--the greatest, I think, concern is building 
capacity between the European policing agencies and the 
Jewish--the Jewish groups and the security apparatus within 
those groups that protect them. So that's an issue.
    Mr. Smith. And, Paul, I know you can elaborate on it 
momentarily, when we're done with the votes, but Paul actually 
headed up an effort of training the trainers--of having police 
who will listen to other police on best practices. And he did 
that throughout Europe for years, and it made a significant 
difference.
    And I thank you, Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman.
    Thank you, witnesses.

    [Whereupon, at 1:39 p.m., the Commission stood in recess 
until 2:18 p.m.]

    Mr. Smith. [Sounds gavel.] The hearing will resume. And 
again, I want to apologize profusely to our distinguished 
witnesses for that long delay. We did have four votes, but they 
took longer than they should have.
    I'd like to now recognize Attorney General Farmer for such 
time as he may consume.

JOHN J. FARMER, JR., DIRECTOR, FAITH-BASED COMMUNITIES SECURITY 
                  PROGRAM, RUTGERS UNIVERSITY

    Mr. Farmer. Thank you, Mr. Chairman, for this opportunity 
to testify on the subject of ``Anticipating and Preventing 
Attacks on the European Jewish Communities in Europe.'' Today's 
hearing comes at a critical juncture in the struggle against 
transnational terrorism, in the history of the Jewish 
communities in Europe, and in the progress of civilization in 
securing the safety of vulnerable communities worldwide.
    You were kind enough to give a sense of what my background 
is, so I won't belabor that. But of most relevance to today's 
hearing, I was the chief law enforcement officer in New Jersey 
on 9/11, a day when our state, as you know, Mr. Chairman, lost 
some 700 of its citizens. I can never forget that day, or the 
sense of failure and disbelief I felt that such an attack could 
have succeeded. Understanding exactly what went wrong and how 
public safety can be protected during a terrorist attack or 
other crisis has been a focus of my work in the years since.
    As senior counsel to the 9/11 Commission, I had the 
opportunity to study the crisis as it was experienced in real 
time by everyone from the President to the evacuating civilians 
in New York's Twin Towers. I subsequently wrote a book, ``The 
Ground Truth,'' that compared the response of the government on 
9/11 to the response to Hurricane Katrina, and found disturbing 
parallels between the way the government reacted to a complete 
surprise attack and the way it reacted to a storm that had been 
anticipated for years and for which detailed plans were in 
place.
    The responses to both events, I found, failed to take 
account of the fact that, as stated in The 9/11 Commission 
Report, ``the `first' first responders on 9/11, as in most 
catastrophes, were private-
sector civilians. . . Private-sector civilians are likely to be 
the first responders in any future catastrophes.'' Among 
trained emergency personnel like police, fire and EMTs, 
moreover, both crises demonstrated that ``critical early 
decisions will have to be made by responders who are not the 
top officials. . . Planning for a crisis should accept that 
reality and empower and train people on the ground to make 
critical decisions.''
    The truth of those observations has been borne out in 
subsequent attacks ranging from the London subway bombing to 
the murders at the Jewish Museum in Brussels to the murders at 
the kosher grocery store in Paris to the most recent attacks at 
the Paris cafes, stadium, and concert hall, and at the Brussels 
airport. As the threat has become more diffuse and the attacks 
less predictable, I believe the following conclusion has become 
inescapable: Anticipating and preventing attacks on European 
Jewish communities--or, for that matter, on any vulnerable 
communities--will be impossible without a dramatically greater 
engagement of law enforcement with the affected communities and 
people, and of the affected communities and people with each 
other.
    For the past nearly two years, I've had the privilege of 
leading, along with Rutgers Professor of Criminal Justice John 
Cohen, an initiative at Rutgers University designed to identify 
the best ways to protect vulnerable communities in light of the 
evolving threat. Funded generously by Rutgers alumnus Paul 
Miller, former general counsel of Pfizer, and his family, 
Rutgers began what we have called the Faith-Based Communities 
Security Program two years ago by taking a close look at the 
evolving threat, and by taking an equally close look at the 
security situations of several European Jewish communities. I'm 
going to talk about that work now.
    The reasons for our initial focus on the European Jewish 
communities are twofold. First, because the European Jewish 
communities are the original diaspora communities, and have 
survived in parts of Europe despite attempts to eliminate them 
for over 2,000 years, we believe that these communities have 
much to teach other vulnerable communities about security and 
resilience. These lessons are particularly important, in our 
view, because the demographics of our world have been 
transformed within our lifetimes. According to estimates that 
predate the recent Syrian refugee crisis, over 20 percent of 
the world's population now live in a nation other than where 
they were born. That amounts to well over a billion people 
trying to adapt to foreign cultures. The world of the future is 
therefore a diaspora world, a world of vulnerable communities.
    Second, we thought it would be instructive to look at 
European Jewish communities now because, as Jonathan Biermann, 
Paul Goldenberg and Rabbi Baker have outlined, they have been 
under renewed stress in Europe as a consequence of Islamist 
radicalization and, to a lesser but persistent extent, age-old 
European anti-Semitism. The occurrence of anti-Semitic 
incidents has spiked dramatically, culminating in the murders 
at the Jewish Museum in Brussels shortly before we began our 
study. The threat evolved and became more deadly even as we 
undertook our work. Indeed, the urgency of our work has 
escalated with each new attack.
    A team from Rutgers was on the ground in Paris during the 
Paris attacks in 2015 and in the aftermath of December's 
attack, in the aftermath of Copenhagen's attack, in the weeks 
preceding the Brussels attacks last month, and also in 
sensitive locations such as Malmo, Stockholm, Amsterdam, 
London, Prague, Vienna and Budapest. In those locations and 
others, we have met and consulted with Jewish community 
security leaders and representatives of law enforcement, the 
governments, and civil society.
    At the same time, we have worked with U.S. communities and 
law enforcement partners to develop what FBI officials have 
called an off-ramp from radicalization: an adaptable, 
multidisciplinary intervention strategy to attempt to identify 
precursor conduct and enable communities to protect themselves 
and each other. The development of such strategies is 
impossible without a high level of public, community and civil 
society engagement with law enforcement.
    We did a readout of preliminary findings at a conference 
last year in Washington co-sponsored by the International 
Association of Chiefs of Police, the Bipartisan Policy Center, 
and Rutgers, and hosted by the FBI at its headquarters. We also 
had the opportunity to describe our work at The Hague to an 
audience of European police chiefs last September. As a 
consequence of that meeting, we had planned to conduct a 
follow-up summit at Europol headquarters this summer.
    But, Mr. Chairman, the time for conference-level 
discussions, we believe, is over. The recent attacks in Paris 
and Brussels have made more urgent the need to take action now 
to protect vulnerable communities. The situation on the ground 
has become dire. As you have heard, the challenge to the Jewish 
communities has become nothing less than existential. Many 
stalwart leaders have become ambivalent about remaining in 
Europe at all. The communities have become caught in a double-
helix of hate, in which terrorist attacks energize the forces 
of xenophobia and nationalism, which have tended historically 
to turn eventually on the Jewish communities. The only thing 
the Islamist terrorists have in common with such forces is that 
both hate the Jews. In short, this is a time of particular 
peril for the Jewish future in Europe, and it is incumbent upon 
us to do what we can to assure that future.
    Why? Well, in addition to the fact that assisting these 
communities is simply the right thing to do, in my view the 
future of our world of vulnerable communities is at stake. If 
the oldest diaspora community in the world cannot survive in a 
place where it has lived for longer than 2,000 years, in a 
place where it outlasted the Nazis, the future of other 
vulnerable communities can only be described as bleak. The 
wholesale slaughter of Christians and nonconforming Muslims in 
Syria and Iraq and elsewhere begins to look less like isolated 
atrocities and more like a harrowing vision of our children's 
future.
    So, after consulting with our European partners in 
Brussels, Copenhagen, London, The Hague and elsewhere, we have 
decided to take action now in the following ways that are a 
direct outgrowth of our work.
    First, with the encouragement of law enforcement and the 
affected communities, we will be traveling back to Brussels and 
Copenhagen in the coming weeks to explore concrete ways in 
which we might assist the Jewish and other vulnerable 
communities and law enforcement in working together to enhance 
public safety. At a meeting of the OSCE last spring in Vienna, 
many joined the representative of France in calling for some 
variation of ``if you see something, say something'' training 
and public engagement as an essential step in improving public 
safety. The need for a similar kind of civil defense approach 
has grown with each attack since then. We are working on 
refining that approach to meet the needs of individual 
communities, but our assistance extends beyond that program.
    Second, with a view to their application to all vulnerable 
communities, we are writing and plan to publish online this 
summer the Rutgers Guide to Protecting Vulnerable Communities. 
This work will provide a distillation of best practices that we 
have identified in the course of our work. These practices are 
adaptable to other vulnerable communities and to various law 
enforcement structures around the world. They will represent 
our assessment of the most effective ways in which governments 
and communities can work together to provide safety for 
vulnerable populations. They range from relatively obvious and 
easily adaptable ways--the creation of crisis management teams 
within communities, as we saw in Copenhagen; regular exercising 
in crisis management, as we saw in Great Britain; facilities 
audits to ensure that potential soft targets are hardened, as 
we saw in Amsterdam--to more challenging but essential steps, 
such as regular communication with law enforcement, training of 
individuals to identify potential threats, and outreach to 
other vulnerable communities and elements of civil society in 
order to develop effective approaches to intervention. The 
guide will be available to all, and we plan to offer on-the-
ground assistance to those who request it, within our means of 
course.
    Third, we plan to focus our efforts on filling a need that 
has been highlighted in the United States and in every country 
we have visited, and echoed by communities, government 
officials and members of the private sector alike: improved 
information sharing of open-source and social media 
information. After having consulted with current and former law 
enforcement officials, as well as having heard the concerns of 
the faith community, NGOs and private-sector entities, I 
believe that a lasting contribution of our project to public 
safety may well lie in its facilitating the more efficient 
sharing of critical open-source information with faith-based 
communities, NGOs, human rights organizations and the private 
sector.
    This effort would not be meant to replace, but rather to 
complement government information-sharing efforts, which, while 
admirable, have a necessarily different and primarily law 
enforcement focus. Such an effort will be fundamental to 
promoting the enhanced level of public engagement that I 
believe is required in order to protect public safety.
    Mr. Chairman, our work in Europe and the recent attacks in 
Paris and Brussels has underscored the ground truth of every 
attack and natural catastrophe since 9/11: it is more essential 
now than ever that the public be engaged at every level in its 
own protection. As FBI Director Comey and other law enforcement 
leaders have recognized for over a year now, the threat to 
public safety is evolving. Law enforcement can no longer act 
alone--if it ever truly could--in combating it. A better-
informed, -trained and -engaged community is a safer community.
    I will close with this illustration. Over the past year, 
I've taken the Thalys train between Paris and Brussels numerous 
times--probably a dozen times. I've been fortunate that no one 
on any of my trips emerged from the restroom in my car with an 
AK-47 and opened fire. When that did occur on the train last 
year, the passengers on board that day were fortunate that two 
trained American military personnel happened to be sitting near 
the restroom and knew how to subdue the attacker. The people at 
the Jewish Museum in Brussels, however, or sitting in the Paris 
cafes, or attending the concert or the soccer match, or waiting 
at the Brussels airport, weren't so lucky. We can no longer 
rely on dumb luck to thwart future attacks. Put simply, we need 
to empower vulnerable people and vulnerable communities to 
protect themselves and others. The Jewish communities in Europe 
are the best place to start.
    We are committed to providing the education, information 
and training that will enable the Jewish and other vulnerable 
communities of other cultures and beliefs, wherever they are 
threatened and whenever they ask, not just to survive but to 
flourish. The stakes for the Jewish and other vulnerable 
communities today cannot be higher. If done right, however, the 
rewards from these efforts will be reflected in a safer and 
more peaceful future for us all.
    Thank you again, Mr. Chairman, for this opportunity.
    Mr. Smith. Mr. Attorney General, thank you very much for 
your very incisive testimony filled with very important 
recommendations. And I do thank you for your leadership.
    And now we're joined by Commissioner Hultgren. Randy, thank 
you for being here.
    And I'd like to now go to Paul Goldenberg.

  PAUL GOLDENBERG, NATIONAL DIRECTOR, SECURE COMMUNITY NETWORK

    Mr. Goldenberg. Thank you, Chairman Smith.
    Good afternoon, ladies and gentlemen. Again, my name is 
Paul Goldenberg. And although I do currently serve as an 
adviser to the U.S. Department of Homeland Security, 
particularly with regard to their Foreign Fighter Task Force, 
the CVE and other initiatives, it's really been a privilege for 
me to participate in the program of which we're going to talk 
to you a little bit more about today.
    I've been working very closely with the Faith-Based 
Communities Security Program at Rutgers University for--it's 
nearly two years. And as a part of this new initiative, and 
working under the leadership of former New Jersey Attorney 
General John Farmer, we have made, as you have heard from John 
and Rabbi Baker, countless trips in recent months overseas, 
traveling to multiple European cities. And it's through these 
trips that we've been able to gain a firsthand understanding of 
the current climate, hearing the concerns of communities who 
really are under threat, and assessing what can do to best 
assist them.
    And I think it's really a very unique group of individuals 
because we all have a very distinctive set of lens. Coming from 
the law enforcement community and not necessarily from the 
human rights communities or the faith-based communities 
directly, our message is one that I think is quite unique.
    What we have seen, heard and learned has confirmed our 
initial hypothesis that while the levels of cooperation and 
partnerships between the Jewish and other minority religious 
communities with their respective policing services--in many 
parts of Europe--is as diverse as the communities themselves, 
more work needs to be accomplished to move closer to a medium 
and a standard of safety and security within these communities. 
While this presents distinct challenges, there is, 
unequivocally, hope, for much of what we have learned, 
innovated, tested and improved upon here in the United States, 
as well as other progressive nations, can be imparted to and 
replicated by our European partners.
    I do want to say and go on record that the United States 
Department of Homeland Security has done an exemplary job 
working here in this country with the Jewish communities and 
other faith-based communities, building resources, building 
programs. There are many unsung heroes across the 50 states 
that are doing remarkable work, working with these communities 
each and every day.
    Mr. Chairman, I do want to thank you for the opportunity to 
testify today, because it was nearly 10 years ago that I heard 
your speech in Berlin, which compelled me to approach you and 
ask you how do I become more engaged and involved. And from 
that conversation and from the tremendous, thought-provocative 
recommendations that you provided, I was able to spend nearly 
four years working across Europe with these disparate 
communities. And I think some good works came from that, and I 
want to thank you personally for allowing me and giving me that 
opportunity to do so.
    So in Europe now, we have heard many times that there are 
alarming levels of anti-Semitism impacting Jewish communities, 
but more broadly acts of targeted violence, extremism and 
terrorism impacting many vulnerable communities as well as the 
broader public. As I stated, I'm both proud to be here with 
such a distinguished group of colleagues, and I really do 
applaud the entire Commission.
    So what I stated before is I speak to you today not as an 
academic, but really as a practitioner--as a former law 
enforcement executive who has personally seen the impact of 
hate crimes, acts of targeted violence, extremism and 
terrorism.
    Jewish communities in Europe have been long targeted. But 
much more than simply the target of hate; they represent now 
something else. They have often acted as the proverbial 
canaries in a coal mine, forecasting much larger problems and 
issues, foreshadowing broader concerns for the other 
communities around them. In this, recent events--from the 
attacks in Paris against the Jewish targets to the targeting of 
Jewish people in Brussels--are not a new phenomenon to the 
Jewish communities across Europe. Rather, the most recent 
attacks merely represent the continuation of targeted violence 
that has changed the way as a community they function, from the 
way religious institutions and schools now approach gatherings 
to what community members may wear in public--in 2016, which is 
unimaginable.
    In the span of just two decades, we've moved from swastikas 
and vandalism, the desecrations of graveyards and simple 
assaults, as well, to longstanding institutionalized anti-
Semitism, which now includes brutal violence, commando-style 
shooting attacks, and even suicide bombings on the streets of 
Europe by battlefield-trained, -tried, and -tested cells and 
organizations.
    From the 2006 torture and killing of Ilan Halimi, to the 
schoolyard slaughter of Jewish children in Toulouse, France in 
2012, to the attack against the Brussels Jewish Museum, largely 
viewed as the first ISIS-related attack in Europe, and nearly 
two years before many European countries even recognized ISIS-
trained operatives and the fact that they were immersed in the 
continent, the list goes on and on and on.
    Unfortunately, some communities have imported the Middle 
Eastern conflict into their host countries, and in some cases 
into their living rooms, with attending acts of violence and 
unbridled anti-Semitism toward local Jewish communities which 
had otherwise lived peacefully, except during the Holocaust 
years. While these events are not without precedent, the pace, 
frequency and scale should be setting off alarms not just here 
in Europe, but in the United States as well. And even here in 
the U.S., according to the FBI's 2014 hate crime report and 
statistics, Jewish communities have suffered an extraordinary 
amount of hate crimes and incidents against their institutions 
and people.
    In the past few years, we have watched as a storm has 
brewed: growing anti-Semitism, xenophobia, attacks against 
religious institutions by those inspired by jihad, and now 
ultranationalists. It is growing unlike anything we have seen 
since the 1930s.
    This vortex has spawned not just a threat to select 
vulnerable communities and populations in Europe, but poses an 
overreaching threat to the human security and safety, and 
security of free and open societies where citizens enjoy the 
right to worship and gather freely without intimidation, fear 
and harm. When citizens of free countries, including our own, 
no longer feel safe in their houses of worship, this is a 
direct threat to a nation's democracy and freedom.
    But as many have watched the storm brew, unfortunately, 
there are still too many doing very little, if anything, to 
prepare. For some, it now appears that we have little more at 
our disposal than in some cases an umbrella during that next 
hurricane.
    What is at risk fROM this threat? What is the new reality? 
In a sense, it is the very fabric and spirit of these 
democratic societies and the collaborative, cooperative and 
trusting relationships between authorities and the communities 
that are sworn to protect them. That is the core.
    The passage, Mr. Chairman, of House Resolution 354, 
``Expressing the Sense of the House of Representatives 
Regarding the Safety and Security of Jewish Institutions in 
Europe,'' is a watershed moment that has reinvigorated and will 
provide much-needed support to enable much-needed collaboration 
amongst and between European partners. It is the formalization 
of this resolution, Mr. Chairman, and years of tireless work 
leading up to it, which has provided us with the impetus and 
roadmap to truly operationalize these public-private capacity 
building and community engagement efforts across the EU, and 
transnational for that matter.
    As an epidemic that now plagues Europe requires a 
transnational approach and commitment to working across borders 
and jurisdictions to effectively combat this threat, our effort 
intends to develop operational recommendations. And I probably 
have said that too many times, but operational 
recommendations--for partnership-building, exchanging good 
practices, providing critical security awareness training, 
based on strategies that have been developed over time in 
Europe, in Israel, in the United States and elsewhere, that can 
be effective in confronting the identified challenges.
    One of the most critical outcomes of the effort would be a 
formalized recognition and relationship between those 
responsible for communal security and the policing agencies 
that vow to protect them.
    Despite religious, ethnic and cultural differences, we have 
succeeded in rallying around the common shared values of 
protecting our houses of worship and safeguarding our most 
precious natural resources, our children, both from becoming 
victims of violence and being lured, inspired and radicalized 
to become perpetrators of that same violence.
    While law enforcement and police services taking on the 
roles of agents of social change are literally the visible 
extension of their governments and do represent the interests 
in protecting their people, they are an integral part of this 
process and, quite frankly, more a part of the solution.
    As we've experienced here at home with our own diffuse and 
evolving terrorism threat, law enforcement cannot take the 
burden alone. I just do want to mention some tangibles that we 
think we should be discussing over the months ahead and 
hopefully consider operationalizing.
    Educating and empowering communities to become more active 
participants and stakeholders in their own safety and security 
will pay immeasurable dividends in contributing to the safety 
and security of whole neighborhoods. We have seen that work 
here in the United States.
    Treating the public as a key partner in counterterrorism 
will promote greater engagement and reduce public apathy and 
believe counterterrorism is a responsibility--where they will 
believe that counterterrorism is a holistic responsibility.
    You've heard from John and Rabbi Baker--increasing 
information-sharing efforts between law enforcement and 
community leaders, building communities of trust, and, more 
important, engaging citizens and communities through trainings 
and exercises which will teach people to know what to look for, 
how to behave, and how to respond to emergencies.
    In closing, I'd like you to consider the following. In 
January 2015, the Grand Synagogue of Paris shuttered for 
Shabbat services on a Friday night following the terrorist 
attacks against Charlie Hebdo and Hyper Cacher, marking the 
first time since World War II that the synagogue was closed on 
the Sabbath. Following the attacks, 10,000 police and soldiers 
were deployed across France to guard Jewish institutions 
against follow-on attacks, an effort that in many places 
continues today.
    In December 2015, New Year's Eve fireworks and festivities 
in Brussels were canceled following a terror-alert warning of 
an imminent attack against the city a month after the November 
terrorist attacks in Paris which killed over 130 people.
    These are not the kinds of firsts we wish to celebrate, nor 
should we tolerate. We cannot be plagued and paralyzed by the 
violent will of hate and extremism. Time is not on our side. 
We're past the time for more summits, conferences and meetings. 
The pace and tempo of attacks requires swift yet informed 
conviction and actions.
    We've experienced hard lessons. We must learn from them. 
We've developed excellent best practices collaboratively with 
our European partners, and we must share them. Gandhi once said 
the true measure of any society can be found in how it treats 
its most vulnerable.
    I'd like to personally thank you, Mr. Chairman, your staff, 
Nathaniel, for your continued leadership with the Commission in 
ensuring that the United States of America will forever fight 
for the protection and preservation of human rights, safety and 
security of all global citizens.
    Thank you very much, sir.
    Mr. Smith. Mr. Goldenberg, thank you so much for your 
testimony, for your very solid recommendations. And past is 
prologue. I believe that we need to be doubling down on what 
was done in the past and then some with those best practices. 
Operationalize surely is the key word. So thank you for that.
    I'd like to yield to Commissioner Hultgren.

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Thank you, Chairman Smith.
    Thank you so much, all of you, for being here; grateful for 
your work. And I'm very concerned of what we see happening. And 
so I really do feel like this is so important. And it does feel 
like history repeats itself if we are not ever vigilant, if we 
are not ever aware of the capability of humans to do really 
horrible things to each other if we're not looking out and 
shining light on what's happening. So I want to thank you all 
for being part of this.
    I want to address my first question to Rabbi Baker. I 
wonder what suggestions you might have of how should the OSCE 
and the OSCE Parliamentary Assembly support efforts to 
strengthen the formal partnerships and communications between 
European law enforcement agencies and Jewish community groups?
    Rabbi Baker. Thank you for your support, and thank you for 
that question.
    First, to take the Parliamentary Assembly--in a way the 
OSCE Parliamentary Assembly has been at the vanguard of pushing 
that organization, which moves somewhat cumbersomely as a 
consensus body, to really take some action, take some steps. 
Really the first resolutions dealing with anti-Semitism in the 
OSCE came at that Parliamentary Assembly.
    So I think it could be a vehicle, whether through 
resolution, through discussion with delegations, to push--which 
I think now there's a more open door--push governments to 
recognize they've had a problem with policing. They've had a 
problem with intelligence. The attitude has largely been leave 
it to us. And people day to day, there really isn't a role for 
them.
    I think now we know and we've experienced in the U.S. 
that's precisely what can't be the approach. So perhaps it can 
be through the drafting of resolution. Perhaps it can be 
through discussions within the Parliamentary Assembly. But 
hopefully that would be a way at least to alert and raise 
awareness.
    Now, within the OSCE itself, under the current German 
chairmanship, Foreign Minister Steinmeier, who was here in 
February, he said they want to make combating anti-Semitism one 
of their priorities. They are supporting, with a substantial 
financial contribution, efforts within ODIHR to develop a 
multiyear plan to combat anti-Semitism in different targeted 
ways. But security of the Jewish community is one of them.
    So I think what really is important is to push for an 
examination of best practices to deal with this. You heard from 
Paul and from John, and particularly from Jonathan in Brussels, 
the goal of getting governments to work even formally with 
Jewish communities. And memoranda of understanding is clearly 
one approach.
    I think our experience in some of this has come during 
visits we've taken, is to see that it's often a one-way street 
when it comes to communication. Jewish communities share with 
police and authorities what they've seen, what makes them 
nervous, but they don't really hear back from governments.
    We've seen now more governments stepping up on physical 
security, but they're doing it in very different ways. So in 
some places, in Belgium and France, the military has rolled 
out. In Denmark and Sweden, there are heavily armed police that 
are patrolling in front of buildings. In the Netherlands, 
they've erected these mobile police trailers in front of every 
synagogue and Jewish community building. But I have to say the 
police have to stay inside. They can be alert to something and 
then they can call for reinforcements, but they're not allowed 
to leave.
    In every case, the communities, at least today, are saying 
they appreciate the attention. But I don't think anyone has 
really said what works best, what makes the most sense. And it 
seems to me the OSCE is precisely positioned to be able to take 
stock of that. Also I think if you push to say this is a 
priority issue, so do something this year--we have a 
chairmanship that has the resources and I think the ability to 
do something.
    Mr. Hultgren. Thank you, Rabbi. That's very helpful.
    I'm going to address my next question across the ocean over 
to Mr. Biermann, if I may. You've testified that strengthening 
security for the Belgian Jewish community must include the 
Belgian Government formally recognizing and partnering with 
Jewish community groups on security and public awareness and 
action campaigns.
    I wonder if there's examples that you can cite in other 
European countries that are especially good models in 
considering for these kinds of initiatives, and maybe some that 
are struggling a little bit more than others.
    Mr. Biermann. Yes, thank you. I believe that in the U.K., 
as mentioned earlier, and in France, governments have 
established a memorandum of understanding about exchange of 
information. This is probably the first step of building a 
relationship of trust and confidence between the authorities, 
law enforcement community, and the Jewish community.
    And again, Jewish community should be considered as pilots, 
because those relationships of trust and confidence established 
with the Jewish community should expand and be established with 
other vulnerable communities also. And I do believe and I do 
hope that by implementing the see-something-say-something 
policy with the Muslim community will be also an opportunity to 
build a broader community where each faith-based or cultural-
based community would share together the--will establish 
together the priority of the defense of common values, 
democracy and human rights.
    To come back to the question of the memorandum of 
understanding and the example of U.K. and France, I do believe 
that it is of great importance to establish what kind of 
information is relevant to collect, who is the proper body to 
collect that information, and what are the efficient channels 
to pass this information to make sure that it will be treated 
by intelligence and law enforcement agencies and that the 
necessary treatment will be provided and information will be 
shared later on an operational basis with the communities 
themselves.
    If communities have to share the responsibility of 
protecting themselves with the governments and with the 
authorities, then we have to empower them and give them the 
means; for instance, by sharing relevant information in the 
field with those communities.
    Mr. Hultgren. Thank you.
    I'm going to ask one last question, and this one we 
probably could spend the whole afternoon talking about. So I 
don't necessarily expect a complete answer, but maybe if one of 
you could speak briefly of what is being done or what can be 
done, especially for school-age children, younger children, to 
change this, what I see as kind of a--certainly a culture of 
hate and a fostering of this, especially in certain 
communities.
    Is there anything that we can do, again, to push education, 
early learning, in some of the communities that we've seen this 
grow, to put some pressure there? I just don't know if any of 
you have any thoughts or if we could maybe follow up after this 
of what we can be doing as members of Congress, especially for 
young people at an early age, to not learn to hate or not learn 
anti-Semitic views.
    Mr. Farmer. If I can jump in on this--of course, we have 
come across a couple of what I would consider best practices to 
try to address the cultural issue you're talking about. In the 
one visit we made, a synagogue in Amsterdam, in particular they 
have a day where they invite in to their school other schools, 
public schools, and school children of all faiths. And they 
basically spend a day learning about the history of Judaism and 
learning about, you know, sort of lowering those barriers that 
are erected when you live in isolation from one another. And 
that seems to have yielded some dividends.
    In France they have a similar Holocaust education 
initiative, which they believe has yielded some great results. 
I think exposing young people to the opposite of hate is really 
important, because actually the solution to all these problems 
is really--and we hope for it anyway--is with the young people. 
And so the better educated they are about each other's 
backgrounds, the less mystified they are by people who are 
different from them and the less likely they are to become 
haters as they get older.
    I don't know if anyone else wants to----
    Rabbi Baker. I think you've identified what the real 
challenge is. And on the one hand, one of the dilemmas is the 
Jewish community in Europe is a rather small community. And 
France is the largest, half a million. But again, it's maybe 1 
percent, less than 1 percent of the population.
    I think in America we're so sort of used to the fact that 
people interact directly, and the best thing to shatter 
stereotypes is to know someone. So on the one hand, you have 
that barrier. There simply aren't the opportunities to, on a 
day-to-day level, just meet with, come to know people.
    But conversely, the fact that today so much can be done 
with Internet connections, with social media and so on--and we 
know all the problems that come through that of spreading 
hate--it's also a vehicle to introduce people. There are some 
wonderful programs, educationally focused programs, one based 
in Vienna, I think the chairman knows, called Centropa; Ed 
Serotta, an American who's lived in Europe for 30 years, is 
responsible for it. It's been linking school kids in Europe, in 
Israel, in different parts of the United States. And they share 
kind of common stories. They do sort of common research 
remotely in their own communities, but then they can 
interconnect.
    I think some of these programs--admittedly there are so few 
of them--but they may hold some hope to do exactly what you're 
saying. And what obviously we need to do--the solution is not 
barbed wire and military deployment in front of schools.
    Mr. Hultgren. Well, again, I want to thank you all for 
being here. These are really big subjects, very important. For 
me the key is let us know suggestions you have, ideas, things 
that we can do to help to turn the tide back to, again, a 
positive direction. I'm very concerned, but also appreciate the 
work you are doing and bringing some hope that we can 
definitely make a difference on this very, very important 
issue.
    So thank you. I'll yield back to the chairman.
    Mr. Smith. Thank you very much, Commissioner Hultgren.
    Let me just ask a few questions. And again, I thank you for 
not only your time, but your expertise, which helps us to do a 
better job as the Commission.
    Let me ask you, Rabbi Baker, you talked about how--I 
believe it was the Dutch who suggested they don't have the 
resources. And there are other nations, of course, that act as 
if they're cash poor. It is a matter of priorities. We're 
talking about mature democracies with very mature economies 
that seem to have far in excess what would be needed. But it 
all starts with the political will to do so.
    And I would ask you to address that. As you pointed out--
and we've been pushing this for years from our side--ODIHR's 
director, Michael Link, testified before our Commission in 
February. He pointed out, when it comes to providing official 
documentation as to what a country is doing, that only 10 of 
the 57 participating States have submitted official information 
on anti-Semitic hate crimes for the latest reporting period. 
And he pointed out that civil-society information covered some 
29 countries.
    Thankfully, you have been a prod to those 10, I'm sure, 
through your visits and your advocacy. And you also provide 
information on others that are not part of this systemized 
reporting. It was Sharansky who here, right here in this 
building, told us--we had him twice, Natan Sharansky, as our 
witness--that if you don't chronicle something, you can't fight 
it. You have to have the parameters of how many, where, what 
and who in order to effectively combat it.
    He was also the one--and I would ask you to speak to this 
as well, Rabbi--you pointed out that there's a problem with the 
definition, obviously with the working definition and its 
implementation and the integration of that. And there's a 
section that you note describing how anti-Semitism manifests 
itself with regards to Israel.
    And not to belabor the point, but it was Sharansky who told 
two hearings that I chaired, and then he told the entire Berlin 
conference that Paul and I, all of us were at back in 2004, 
that there is a way of deciphering when it's not just 
disagreements with the Knesset and with the Israeli policies. 
He called it the three Ds--demonization, delegitimization and 
double standard. As soon as one or all three of those manifest, 
you can be pretty darn sure you're talking about an underlying 
anti-Semitic motive behind the criticism of Israel.
    And as you point out, there was a section of that in that 
report you referenced. But this idea of chronicling--and maybe 
you might want to speak to, again, since Israel is in the news 
so often, I've actually chaired hearings about how the Human 
Rights Council absolutely disproportionately focuses on Israel 
and gives a pass to China, North Korea, Sudan, Iran and many 
other countries that have committed heinous human-rights 
abuses, and large magnitude of those abuses at that. Israel is 
always in the cross-hairs, which suggests to me that the Human 
Rights Council itself violates the three Ds as articulated by 
Sharansky. But if you could speak to that.
    Rabbi Baker. Well, first, to the point you make, absolutely 
correct that we used to confront--in some ways we still do--the 
reality that incidents aren't recorded, aren't reported, and 
therefore it's as though they didn't happen. And I have a very 
vivid memory of discussing the problem of anti-Semitism here in 
Washington in 2002 with Javier Solana, then the sort of 
foreign-policy czar of the EU, who said to me--when I described 
the problem, he said, well, I don't see it.
    And it was not a criticism of me. It was essentially to 
say, OK, help me see it. But at that point nobody was recording 
these incidents of hate crimes; in many cases not recording 
hate crimes in general, let alone explaining or disaggregating 
them so they would describe the anti-Semitic crimes. So in a 
way he was correct.
    I think we've come a distance, although, as you point out, 
there's commitments that are made by governments to the OSCE 
and then there are commitments that are fulfilled by 
governments. And unfortunately, not many are reporting data on 
hate crimes. And those that do, it's only a small number that 
really indicate anti-Semitic hate crimes. But it has been 
pushed a bit.
    And as you pointed out, there are more and more communal 
organizations working with professional standards now that are 
also collecting data. So we're getting better at it, although I 
would reference that EU fundamental rights agency survey that 
indicated how so many incidents were unrecorded. And that is 
surely the case still.
    My reference to meeting with governments and being told 
they don't have the resources or the interest to step up with 
security, I'm not sure it was really an issue of money; maybe 
in some places. In some cases, I think it was probably a mask 
for saying we don't see it as serious a problem back then as I 
did or Jewish community leaders did. Or they had other issues 
in front of them and they wanted to push it off.
    The good thing about the terrible things that have happened 
is today most governments recognize they have to do something. 
So they have stepped forward. What I would say, though, today 
is, as I illustrated, they're all doing it in different ways. 
And it really is, I think, useful and timely to try and say 
what really works. What's going to be helpful and efficient and 
cost-efficient going forward? Because this isn't a problem 
that's going to end in a matter of months.
    And then, finally, to the issue of the working definition, 
which, in my testimony, written testimony, I did speak to at 
length. Look, we recognize, as Natan Sharansky demonstrated 
before you, that we've seen a form of anti-Semitism that 
relates to the State of Israel. It was referenced even in that 
Berlin declaration, although implicitly, when it spoke of anti-
Semitism taking on new forms and manifestations. When Israel is 
demonized, as you said, when it's declared a racist state, when 
analogies are drawn to the Nazis, it's not criticism.
    And the value of that EUMC working definition, which was 
developed in 2004 and distributed by the EUMC in 2005, at a 
time when there were 17 members of the EU, and the monitoring 
center, which did its own survey the previous year, had to 
admit that over half of its national monitors had no definition 
of anti-Semitism. And of those that did, no two were the same.
    So the working definition really provided a service for 
governments, for monitors and for civil societies. And mind 
you, it's a comprehensive definition, and it took on and 
described aspects of anti-Semitism which maybe today we more 
fully recognize. But if you think back 10, 15 years ago, it 
wasn't the case. In other words, Holocaust denial is a form of 
anti-Semitism. When you spread these conspiracy theories about 
Jews, that's a form of anti-
Semitism. In a way, you can have anti-Semitism still without 
having Jews.
    But the reality is that it has a corrosive effect on day-
to-day Jewish life, and particularly when you look at the issue 
with regard to Israel. You think about this. People who have 
negative views of Israel take them out on Jewish community 
members. Jews and Israel are conflated. It's as though they're 
responsible, the Jews of Stockholm or of Paris or of 
Copenhagen, for what the Israeli Government is doing. Or you 
have attacks that emerge from what are maybe pro-Palestinian, 
pro-Arab, anti-Israel demonstrations. But they're not just 
against Israel. At some point they turn on Jews. And we saw 
that two summers ago during the Gaza conflict in Paris and in 
other European cities.
    So the working definition describes this, but it's also a 
useful tool for law enforcement, for judges and prosecutors 
witnessing these events, to say, wait a minute; I need to think 
twice. I can't just say, oh, this is Middle East politics. No, 
there's something more. And the value of that definition and of 
trying to get it more and more in play, in use, goes to 
precisely things that also will make a difference in the day-
to-day lives and security of Jewish communities.
    Mr. Smith. Thank you.
    Let me ask Mr. Biermann, with regards to the MoU, potential 
MoU with the Belgian Government, is that coming along? Is it 
likely to happen? Are you at liberty to explain what some of 
its contents might be? Is the U.S. Government being at all--you 
know, our embassy and our ambassador being helpful to that 
effort?
    Mr. Biermann. I think the coming visit, the planned visit 
of John Farmer and Paul Goldenberg will be a great opportunity 
to share a good practice. And I think they would be the actors 
of introducing the idea to the authorities that an inspiration 
of what is working in the U.K. and France could be implemented 
here and adapted to the Belgian institutions, which are, as you 
know, very complicated.
    But I do believe that the House Resolution 354 and the 
expertise, the network established by Rutgers University, will 
be instrumental in convincing that such an MoU would be an 
opportunity to empower the Jewish communities, and maybe later 
other communities, to be part of building a new strategy 
involving the different communities, in establishing greater 
security in Brussels and in Belgium.
    I have the feeling that there's a very strong political 
will of the Belgian Government to put all the resources needed 
to fight terrorism, enhance public security and public safety, 
specifically for the Jewish community. But as I mentioned 
earlier, we should not reinvent the wheel. Good solutions exist 
and are implemented in neighboring countries. And we need to be 
inspired and to be able to implement it here as well and to 
adapt it to our local reality.
    Mr. Smith. Let me just ask, Mr. Farmer--first of all, 
Attorney General Farmer, thank you for your work as well--I 
should have emphasized it--with the 9/11 Commission. I actually 
chaired two of those follow-up hearings; was the Republican co-
sponsor, not the prime sponsor but the co-sponsor, of the 
actual commission. And there were concerns that it was going to 
be politicized. And certainly Tom Kean did a magnificent job, 
in my opinion, along with his counterpart on the Democrat side 
of the aisle, to say this is above board; we want this to work 
for the betterment of Americans, regardless of political 
persuasion. And they did that.
    So thank you for your critical role in that report, because 
it was the blueprint for everything we have done since. You 
know, all the stovepiping is largely gone, although never 
completely gone. So thank you for that leadership.
    And I'm wondering, with these best practices and your 
initiatives, which I think are extraordinary--you know, the 
open-sourcing, the guide to best practices--are there next 
steps you think we ought to be taking in the U.S. Government? 
It seems to me, you know, it is excellent that the OSCE raises 
these issues. And the Personal Representative, Rabbi Baker, 
does an unbelievably effective job, but he's only one voice; 
and it seems to me all of our ambassadors, Homeland Security, 
in its daily interface with law enforcement, needs to make this 
a priority.
    I find that human rights issues in general, including 
combating anti-Semitism, all of that often takes a backseat to 
the tyranny of the urgent, whatever that might be, economic 
issues or whatever it might be. And I believe--and I believe 
you do as well--that this hate that is festering and growing 
worse by the day not only manifests against Jews but all 
other--as you pointed out in your comments--if the oldest 
diaspora community in the world cannot survive in the place 
where it has lived for longer than 2,000 years, in a place 
where it survived the Nazis, the future of other vulnerable 
communities can only be described as bleak. And as you point 
out, the wholesale slaughter of Christians and non-conforming 
Muslims in Syria and Iraq and elsewhere begins to look less 
like isolated atrocities and more like a harrowing vision of 
our children's future.
    I do believe that anti-Semitism, especially with radical 
Islam, is at the core of all the other problems. And we've had 
hearings here, as Rabbi Baker knows, where we called on all the 
other faiths to step up and do more. So maybe if you could, all 
of you, make recommendations now or in the future on how we get 
a whole-of-
government approach. Right now I do believe, with all due 
respect to the administration and the previous administrations 
and Congress, we do it in an isolated way. We're in there but 
we're not doing enough--never enough money, never enough 
commitment, political will.
    If we really want to eradicate anti-Semitism to the 
greatest extent possible, it will take a Herculean whole-of-
government approach. Homeland Security needs to be--it's part 
of their agenda. Every ambassador needs to make it a part of 
his or her agenda, especially in countries where it is 
festering but elsewhere as well. As Rabbi Baker said, there is 
anti-Semitism about Jews, particularly in Holocaust denial.
    So you might want to--and when you--for example, your 
visits to Brussels and Copenhagen, upcoming, it seems to me 
that if the FBI director were at least involved in some way--
the more the better, as well as his top people--that would make 
a difference. You know law enforcement like few people--and 
Paul as well. How do we get that whole-of-government approach 
as well?
    Mr. Farmer. Well, I think the--and thank you for the kind 
words about the 9/11 Commission, and Governor Kean did a 
spectacular job next to Chairman Hamilton in driving us toward 
a truly nonpartisan product--but I think the eradication of 
hate, and anti-Semitism in particular, is part of a larger 
project--the first part of a larger project, which is the 
engagement of--and it's transformed the project for law 
enforcement and for--frankly, for the citizenry. It's 
engagement of the public at the street level, you know, both in 
Europe and the United States.
    The average citizen has been told: Just live your normal 
life. Let us worry about the terrorist threat. Let us take care 
of it in law enforcement. And if that was true, if that 
approach worked 15 years ago, it certainly doesn't work 
anymore. And there's been a recognition by FBI Director Comey 
for at least the last year that law enforcement by itself can't 
fight this because the threat is so atomized, it's so diffused, 
there's no way to predict where the next attack is coming, 
absent a level of community engagement that simply hasn't 
existed before.
    That reality is true on both sides of the ocean. But I 
think we have to be careful, though, in terms of dealing with 
other countries. You know, they all have unique situations too 
and there is no one size fits all. So ``see something, say 
something'' might look one way in one community and another way 
in a different community depending on demographics and 
depending on the structure of their privacy laws and other, you 
know, complicating factors.
    But what's needed is a commitment to the principle of 
community engagement, and a real commitment. MoUs are great, 
and we've all worked with some that are terrific and work and 
we've all worked with others that are just empty documents. 
What's really needed is cultivation of the kind of cooperative 
attitude toward community engagement that hasn't existed 
before. When you have that, you'll find the resources, because 
there are resources that can address these issues.
    Mr. Smith. Are there examples of an off-ramp for 
radicalization, as you suggested?
    Mr. Farmer. Well, we've been in the process of developing 
them both here and in Europe, communities like Dearborn, 
Michigan. And Paul can speak to this as he's worked with these 
folks over the years. In Cook County in Illinois, we've been 
part of an ongoing process. And again, these off-ramps involve 
the expertise that's on the ground in these vulnerable 
communities, which will differ from place to place.
    So in one place it might be school officials who are 
integrally involved in the identification and diversion of 
potential radicalization. In other places it might be faith-
based. In other places it might be--but the principles 
underlying them are uniform, and that is the principle that law 
enforcement just simply can't do this by itself, that there 
are--especially in some communities in the United States and in 
Europe, there's a level of distrust among certain vulnerable 
communities and law enforcement. So there's a bridge that needs 
to be built between them.
    And frankly, one of the reasons that I thought Rutgers was 
a good idea getting involved in this is we're a secular state 
institution. We have no orientation here other than the safety 
of our citizens. So I think that we could bring a credibility 
to these discussions and lower the levels of mistrust that 
might already exist.
    Mr. Goldenberg. The off-ramps, I'm very engaged at DHS now 
nationally. I spent a lot of time in Dearborn. The chief and 
the mayor have both become friends. And Dearborn has done a 
tremendous amount of good works in this area. When we refer to 
off-ramp, though, the problem is there has to be a 
collaborative agreement between the law enforcement community, 
mental health community, the educators, et cetera, because the 
police community is trained to become engaged and involved when 
people are conspiring and/or are involved in criminal activity. 
So where's the line?
    So right now the off-ramps are a gray area. Law enforcement 
is trained to do its job, which is to engage if someone is 
planning a terrorist attack. And yet at the same time, if it's 
an effort that could be collaborative in nature where you 
engage the mental health community, juvenile justice, et 
cetera--look, the common denominator between most of these 
young people--or people that could be in their 30s--they're 
inspired by the Internet now. That's the bottom line. The 
parents of a lot of these young people are as concerned as we 
are. They just don't have a protocol or a process on when and 
how to report. So, well, you heard John say time and time 
again, it really does need to be a collaborative effort. So the 
off-ramping, as you refer to, is one part of the process.
    The concern and the issue is, is what's happening now. 
What's happening is that we've got well-trained, well-inspired 
people with resources now who are not only attacking 
institutions within their countries but they're attacking 
Jewish institutions. They're attacking the Jewish people. So 
when I say it's a matter of record that that's what we are 
dealing with--so it's not just a matter of the off-ramp is one 
piece, because maybe we can grab some of them beforehand, but 
the real challenge is the exchange of intelligence and the 
training of members of the community to be good partners.
    And that's what we're hearing from people like Jonathan and 
others across eight, nine countries that we visited in the 
years--Andy Baker and I have been visiting these countries for 
10 years and we hear the same thing: We want to be partners. 
There's a quid pro quo that's so simple. A good partner gives 
you information that says, I have a suspicious person standing 
in front of my institution; therefore, maybe if I engage with 
the police early enough they'll respond and save lives. So the 
police get the information they need and the community becomes 
empowered to be a partner in this process versus living in 
total fear.
    When I closed before, I'll tell you, it was a stark--when 
they cancelled New Year's Eve--and whole school systems are now 
shutting down in Los Angeles due to these threats--they've won, 
Chairman. Mr. Chairman, they have won. And that's why the 
building of capacity with the public is now more important than 
ever. Resilience is going to be as important as response, 
because if we shut down, we're really in bigger trouble than we 
think.
    Mr. Smith. Training the trainers, could you just, for the 
sake of the Commission, where you think that might go in the 
future, a little bit about the past, the importance of----
    Mr. Goldenberg. Yes, sir. And the past was very effective. 
The reason it was effective was the team that we built had 
Kosovoans training next to Serbs, training next to Croats, 
training next to the French gendarmerie, training next to 
people from MI5--I mean MI6.
    And you met them, sir. I mean, you had an opportunity to 
meet the team. It was 12 colonels, lieutenant colonels, majors; 
male, female. It was an exemplary team of people who all had a 
single purpose, to work with police partners to provide best 
practices and training on how other countries are effectively 
working with their communities, particularly with regard to 
keeping the houses of worship open--i.e. synagogues, mosques 
and churches. So is this effective? Extremely effective. Police 
are part of that change.
    So what we're talking about at Rutgers University is we're 
talking about building out capacity where--because there's such 
a tremendous amount of expertise here, not only nationally but 
internationally, that could be brought to the table, we would 
need the support for this effort to build a training institute 
that could be either on the ground, or we could train here in 
the metropolitan area.
    Mr. Smith. Let me just ask a final question and then 
yield--two questions.
    One, is there a need for additional legislation that would, 
again, encourage a whole-of-government approach on our part? 
Again, when I talk to ambassadors--and I travel frequently--
when I bring up human rights, it's usually not the priority. 
When I bring up anti-Semitism, it is definitely not the 
priority. And that goes for a lot of places in Europe. You 
know, there's a standard, yes, we care about it. And then, 
well, what are you doing? And then there's a blank stare.
    So is there something we could be doing to motivate? Of 
course it starts from the top down. And it seems to me that 
personnel is policy. If the right people are--secretary, 
undersecretary, right on down--you're more apt to get a more 
focused response and not a hermetically sealed response from, 
oh, go talk to Human Rights or go talk to the special envoy or 
someone.
    Secondly, the impact on young people--you know, obviously 
war and hatred has a disproportionate impact on the most 
vulnerable, and that always includes children. How are the 
European Jewish children responding to this onslaught of hate 
towards them and to their parents and their faith?
    Mr. Goldenberg. I'm going to leave that second part to Andy 
because I think he's best suited. He's been working very 
closely with the communities. And we have Jonathan here. But 
I'd like to respond to the first part, and I'll tell you why.
    Look, when we think in terms of institutionalized anti-
Semitism, it's much more complex than this. If people in the 
United States of America or Canada or any of the free countries 
of the West do not feel safe in their houses of worship, 
democracy is in trouble. And it's not only a police problem. 
It's a problem for those that are involved in running the 
nation, the administration of the nation. If people are not 
safe any longer in their houses of worship, it's really a 
critical issue.
    So if right now it's synagogues or Jewish community centers 
that are under attack, tomorrow churches--we're seeing it now--
or mosques or temples, and if people no longer feel safe and 
their children don't feel safe, we have a real concern. So what 
I'm saying is it's anti-Semitism--and I'm not taking away from 
the fact that it's anti-Semitism--but it's also taking away 
from the fact that people can no longer worship, who, where and 
when. And that is a threat to all members of a society or any 
Westernized free democratic country.
    Mr. Farmer. If I can just jump in on that, a good example 
of what Paul just was referring to--the church shooting last 
year in South Carolina is a classic case of an incident that 
might have been preventable had best practices been widely 
disseminated in terms of securing houses of worship across 
denominations.
    So in terms of your question about a change in the law, I'm 
not sure a change in the law necessarily but encouraging a 
reallocation of resources so that rather than buying--you know, 
instead of buying homeland security equipment and quasi-
military equipment at great expense, some of those funds be 
redirected to efforts to engage the communities at that level 
that we've been talking about. That's the kind of prodding that 
I think Congress is expert at doing and could really yield 
results in terms of reallocating resources toward community 
engagement.
    Rabbi Baker. I was struck in one of the gatherings that 
Rutgers has organized, a hearing from one of the New York City 
police officials talking about their goal in dealing with hate 
crimes in New York City, is that the people should feel safe in 
their identity on the streets of New York. It's not just to 
feel safe but to be able to be openly expressive of who you are 
and feel safe.
    That's what we've lost in so many European capitals 
already. I mean, if you go out in the street and you don't have 
anything that identifies you as being Jewish, or perhaps--I 
don't want to limit it to Jews--you don't look openly strange, 
a Muslim or another sort of immigrant, you're probably fine. 
But if something marks you as different, I think people have 
come to recognize you're in danger--maybe not physical danger 
of being murdered, but certainly in danger of being verbally 
harassed and maybe something more. And we've almost conceded 
that. So somehow we have to get past that. We have to say, no, 
no, that isn't acceptable.
    I think one of the real values that I've observed over the 
years, certainly with Paul and with John, is the way in which 
people--practitioners here, people who come from a law 
enforcement background, are able to have a direct conversation 
with the European counterparts in the way that the human rights 
organizations maybe simply cannot connect. So even if the human 
rights organizations themselves are committed to and have as 
their priority getting these issues addressed, getting people 
who have kind of gone through the experience from the law 
enforcement, justice side of things here to share their 
experiences over there can be valuable and helpful.
    I'm not sure that the issue in Congress is more 
legislation, at least legislation that's going to change things 
on the ground in Europe, but as you said, there are so many 
CODELs that travel, foreign delegations with whom you meet. The 
degree to which they hear from American leaders, from American 
members of Congress that this matters, we know it elevates the 
attention over there. And we've seen it going back 15 years, I 
think, at every important juncture in a way you have made the 
difference. So I would urge that to really continue and to be 
kept up.
    I have to say I wrestle with the very same question, 
Congressman Smith, you raised when it comes to children, when 
it comes to kids. On the one hand, we can say kids are 
resilient. Yes, they're going to school, they're going past 
military barriers. Jonathan will tell you there's so many 
anecdotes of the kids waving to soldiers, little accounts of 
how well the soldiers in Paris have never had so many cookies 
and everything else that the kids' families are bringing, but 
we know that even getting used to it is hardly the solution. It 
can only be temporary. And we really do need to figure out how 
the environment can change.
    Yes, there's a larger picture. The threat of terrorism is 
with us. The inability of European governments to really get a 
handle on it and deal with it is evident. How do you combat 
this radicalization? There's the added dilemma of a kind of 
political correctness that plays out in Europe where we want to 
do something but we can't sort of single out communities, and 
yet we know that the sources of the problems are not spread 
equally--yet one more barrier to cross. But hopefully the more 
that there is a back and forth and the more that there can be 
work on a practical, pragmatic level, that can maybe take 
what's gone on here, admittedly translated in ways that make 
sense in Europe that's mindful of the different laws and 
traditions, hopefully that will achieve something in the long 
term too.
    Mr. Smith. Just thinking out loud--maybe we need to also 
engage the NATO Parliamentary Assembly and NATO itself to be 
integrating this concern more in their agenda, even though 
they're a security--this is a security issue.
    I do have one final question, and that would be about 
monitoring or at least analyzing the news media. You know, I 
remember when Mubarak would come here--all the time, I and 
others would always raise the issue of the Coptic Christians, 
which weren't doing all that well under his regime, although 
better than Morsi by a long shot before he was deposed--and 
secondly, anti-Semitism state-run media, which would be filled 
with Nazi pictures and the like, Ariel Sharon and--it's just 
not good.
    My question is, our own media and the media in Europe has 
an ability by how they shade things, the readers who write in, 
particularly online, that can really--we have some of that 
going on in own district right now vis-a-vis a community known 
as Lakewood. And I read some of these readers' responses and I 
shudder. I mean, there ought to be an ability to not allow that 
kind of expression. And I am a free speech man, believe me, to 
my core, but not anti-Semitism hate speech, or hate speech of 
any kind.
    So monitoring the newspapers, is that being done 
adequately? Is that a best practice we need to be promoting? I 
mean, again, not taking away from press freedom, but there are 
lines that can be crossed.
    Mr. Farmer. Yes, there is work being done, and in fact some 
interesting--I can get it to you--showing a correlation between 
the use of certain words in the media and certain types of 
coverage, and the spike in anti-Semitism incidents, I believe 
both in the U.S. and in Europe. So that kind of monitoring is 
taking place.
    Rabbi Baker. You know, I just want to point out first, very 
anecdotally, I have four adult children. None of them read 
newspapers. I get two newspapers delivered to me every day. I'm 
such a fossil when it comes to this. I think we know people get 
their news, their information from social media, or maybe they 
read newspapers online. But I think it's the social media that 
is really the vehicle.
    In one survey that was done in France that did try and 
gauge, with some depth, attitudes in the Muslim community, 
those that harbored the most extreme views correlated--they 
didn't correlate with education. It didn't correlate with 
economic situation. It correlated with who was getting their 
information from social media, because it was a kind of 
reinforcing of all the hate and all the negative stereotypes 
that came through there.
    How we monitor it and how we can deal with it, let alone 
how we control it--and of course the Europeans would like to 
come here to you and tell you what you should do to control it, 
which is change that little problem called the First Amendment. 
I mean, obviously this is an enormous challenge and this is a 
divide in some ways between Europe and here. But we do need to, 
I think, recognize this is a new source--this is the new source 
today of where the anti-Semitism and other forms of hatred are 
being spread, and it's almost impossible to keep up with the 
monitoring that's necessary and to ask these social media 
companies, who have the ability voluntarily to police and to 
remove things, to really step up to that.
    Mr. Goldenberg. You know, I want to go back----
    Mr. Biermann. Mr. Chairman, if I may----
    Mr. Goldenberg. Oh, I'm sorry. Go ahead, Jonathan.
    Mr. Biermann. Thank you.
    Just to answer the previous and the current question maybe 
together, in Belgium for the last two or three years, young 
Jews leave public schools. Those schools become Jews-free. How 
can we hope that there will be mutual understanding, cultural 
exchanges among Belgian younger generation without an 
opportunity for them to even meet and sit together in the same 
class? I believe that the Jewish day schools cannot become a 
refuge for young Jews because that would be rebuilding the 
walls of the ghetto. I believe that dedication is key to 
establish a melting pot society in which everyone feels safe 
and secure with its own culture, faith and roots.
    And I also do believe that the media have a huge 
responsibility in the last decade in not being able to build a 
positive environment to mutual understanding, and also because 
the media have used a terminology which has banalized anti-
Semitism, mixed concepts on the Middle Eastern conflict. And 
also the media have probably not reacted strongly enough to 
anti-Semitism in the newspapers or in the comments of the 
readers on the social media.
    In that respect, I do believe that the media should better 
take a bigger responsibility in the way they are contributing 
to educate the population, and specifically the younger 
generation. I do believe also that less and less of the younger 
generation read the newspaper, but they are commentating on the 
articles on the Web, and I believe that the atmosphere and the 
banalization of anti-Semitism led us to the situation we know 
today, to the fact that young Jews escape from public schools 
and join Jewish day schools, probably not for positive reasons. 
Thank you.
    Mr. Smith. Thank you.
    Yes?
    Mr. Goldenberg. Yes, I do want to make one comment and just 
go back to one thing that you said.
    One of the things that someone said was they talked about 
the economics of anti-Semitism and the fact that many are not 
even considering the economics of anti-Semitism. Well, the food 
for thought for many in Europe and here even in the United 
States is, right now, on any given day, probably tens of 
millions of euros are being spent to have troops and police 
standing in front of what technically should be the most 
precious institutions in any country, and that's a synagogue, a 
mosque or a school even.
    So the economics of anti-Semitism are going to have a toll 
and I don't think anyone has taken a close look at that, not 
only what it takes to protect a vulnerable community because 
they're under attack, unfortunately, but it's the economics of 
people who have lived for hundreds of years and now are 
determining whether to leave or not, and leave behind 
professions and resources. So there is definitely economics 
that will come to play here, and that's something to be 
considered for any free country, the cost if we let this go to 
where it's become today.
    Mr. Smith. Thank you.
    Just to conclude--and then if there's anything you'd like 
to add that we have not touched, the floor would be yours. But, 
you know, to Rabbi Baker's thought and comments regarding 
social media, I was in Bethlehem a number of years ago and I 
spoke at a Catholic university that has three-fourths of its 
students are Muslim--and very disciplined, good conversation. 
So we had a forum, and they asked me questions and I asked them 
questions. And when we got to 9/11, Mr. Attorney General, they 
claimed, to a person--and these were some of the best and the 
brightest students at that university--that it was all the 
Jews' fault, obviously, and that no Jewish person died.
    Now, I had some 58 people in my district die in the Twin 
Towers. I know many of the widows. I hired one of the widows on 
my staff. Several of those widows who lived in Middletown and 
elsewhere, New Jersey, were Jewish. And I said, I know these 
people personally. They are Jewish. Where did you get this big 
lie that the Jews caused it and no Jews died in the Twin 
Towers? I said, you're looking at someone who will bear witness 
to the fact that many Jews died in the Twin Towers as well as 
in the Pentagon. And they said, the Internet, and social media 
to a lesser extent but it was the Internet that was the source 
of virtually all of their--and it was to a person. So a 
radicalized youth who are very sympathetic to the arguments of 
Hamas are made even more so by those big lies.
    You know, I walked away so troubled. And I said to the 
headmaster, I said, you know, you've just got to tell the 
truth. And he said, it was good that you did. But it shouldn't 
take a congressman from New Jersey in a forum to be doing that. 
It is amazing how the disinformation campaign has worked, and 
so effectively.
    Mr. Farmer. Those reports were circulating the day of 9/11 
itself, along with, by the way, the reports of thousands of 
Muslims dancing on the rooftops in Jersey City, which were 
about as true. [Chuckles.]
    Mr. Smith. Well put.
    Thank you, Rabbi Baker.
    Rabbi Baker. Thank you.
    Mr. Smith. Thank you for your testimony. Thank you, Mr. 
Biermann, for your contribution and for--it must be a little 
later there than it is here. Thank you.
    We will forward any thoughts you have. This Commission 
stands ready, in a bipartisan way, to do everything humanly 
possible to promote this extremely important human rights 
cause. And I thank you so much. The meeting is adjourned.
    [Whereupon, at 3:38 p.m., the hearing was adjourned.]

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon to everyone joining us today and especially to our 
witnesses, Rabbi Andy Baker, Personal Representative of the OSCE 
Chairman-in-Office on Combating Anti-Semitism, and Director of 
International Jewish Affairs for the American Jewish Committee; 
Jonathan Biermann, Executive Director of the crisis cell for the 
Belgian Jewish community, who will testify by video link from Brussels; 
John Farmer, Director of the Faith-Based Communities Security Program 
at Rutgers University; and Paul Goldenberg, Director of the Secure 
Community Network.
    Today we will discuss how to anticipate and prevent deadly attacks 
on European Jewish communities. The recent terrorist attacks in 
Brussels were reminders that Europeans of all religions and ethnicities 
are at risk from ISIS. But there can be no European security without 
Jewish security. As we have seen so many times in so many places, 
violence against Jewish communities often foreshadows violence against 
other religious, ethnic, and national communities.
    ISIS especially hates the Jewish people and has instructed its 
followers to prioritize killing them. The group's cronies targeted the 
Jewish Museum of Belgium in May 2014, the Paris kosher supermarket in 
January 2015, and the Great Synagogue in Copenhagen in February 2015, 
and murdered people in all of them. Some thwarted plots have revealed 
plans to target even more Jewish community places and kill even more 
Jewish people. Other Islamist terrorist groups share its hatred and 
intent.
    However, terrorist and terrorism only account for some of the 
annual increases in violent anti-Semitic attacks in Europe over the 
past few years. Survey and crime data show that anti-Semitic attitudes 
and violence in Europe are most rife in Muslim communities. Anti-
Semitic attitudes, and non-terroristic anti-Semitic violence, have also 
risen across the religious, political, and ideological spectrum.
    There are many different aspects of combating anti-Semitic 
violence. For example, European Jewish and Muslim civil society groups 
are collaborating with each other to counter violent extremism and 
hatred that impacts their respective communities. Today's hearing 
though will zero in on the role of law enforcement agencies and 
especially on their relationships with Jewish community groups. These 
partnerships are essential, according to Jewish communities and experts 
on both sides of the Atlantic. That is why I authored House Resolution 
354 as a blueprint for action and why the House passed it unanimously 
last November.
    Our witnesses will testify about what European law enforcement 
agencies, their governments, and Jewish community groups need to do to 
ensure these partnerships are formalized and effective. They will 
discuss the ideal roles for the OSCE, the United States, and other 
civil society groups, in supporting these initiatives. The witnesses 
will also share what can be learned from the experiences of law 
enforcement agencies and Jewish communities to counter terrorism, and 
strengthen public safety more broadly. Their insights will help guide 
the efforts of the U.S. Government, the Congress, and my fellow 
Helsinki Commissioners, especially Commission Co-Chairman Senator Roger 
Wicker, and Ranking Member Senator Ben Cardin, who has been the Special 
Representative on Anti-Semitism, Racism and Intolerance for the OSCE 
Parliamentary Assembly since last March.
    Today's witnesses are world-class experts and practitioners on the 
subject.
    Rabbi Baker has been one of the most important figures in combating 
anti-
Semitism and addressing Holocaust-era issues over the past few decades. 
He was first appointed as Personal Representative of the OSCE Chairman-
in-Office on Combating Anti-Semitism in 2009 and every subsequent 
Chairman-in-Office has reappointed him. He has been the Director of 
International Jewish Affairs for the American Jewish Committee since 
2001 and with the organization since 1979. He has served in senior 
leadership roles in many initiatives and been publicly commended many 
times over, including by heads of state in countries like Germany, for 
his efforts. Rabbi Baker and I have worked together closely to combat 
anti-
Semitism for many years.
    I am pleased that we are able to hear a voice from Brussels, where 
ISIS followers murdered 32 people and injured more than 300 others only 
a month ago. Jonathan Biermann is Executive Director of the crisis cell 
of the Belgian Jewish community and was in charge of the cell at the 
time of the attack on the Jewish Museum in 2014. A lawyer by 
profession, he has been a member of the City Council of Uccle, a 
municipality in Brussels, since 2012 and is currently an Alderman on 
the Council. Mr. Biermann is a former Political Adviser to the 
President of the Belgian Senate, the Minister of Development 
Cooperation, and the Minister of Foreign Affairs. He brings the 
perspective of a Brussels native and resident born into a family very 
involved in the Jewish community.
    John Farmer is the Director of the Faith-Based Communities Security 
Program, part of the Institute for Emergency Preparedness and Homeland 
Security, at Rutgers University, the State University of my home State 
of New Jersey. The Program spearheaded a major conference last July on 
``Developing Community-Based Strategies to Prevent Targeted Violence 
and Mass Casualty Attacks'' in collaboration with the FBI, Department 
of Justice, and others. He was the Attorney General of New Jersey from 
1999 to 2002 and Senior Counsel to the 9/11 Commission. Attorney 
General Farmer was later the Dean of the Rutgers Law School.
    Paul Goldenberg is the National Director of the Secure Community 
Network, a national homeland security initiative of the American Jewish 
community, and is also the CEO of Cardinal Point Strategies. A New 
Jersey native, for decades he was part of the law enforcement 
community, starting as a cop--including years of undercover work--and 
eventually as the first Chief of the Office of Bias Crimes and 
Community Relations for the State of New Jersey. Goldenberg has 
relevant experience with the OSCE, as the former Program Manager and 
Special Advisor for the OSCE/ODIHR Law Enforcement Officer Training 
Program for Combating Hate Crimes. He is currently Co-Chair of the 
Department of Homeland Security's Fighter Task Force, Vice Chair of the 
DHS Faith-Based Advisory Council, and a Special Advisor and Member of 
the Secretary of Homeland Security's Combating Violent Extremism 
Working Group.
    Finally, I am pleased to recognize the presence here today of Paul 
Miller, a Member of the Board of Overseers of Rutgers University. 
Throughout his law career, he was involved in public safety and 
security initiatives--including for the Jewish community--and continues 
that important work now through the Miller Family International 
Initiative at the Rutgers School of Law.
    To you, and to our witnesses, a warm welcome. I will now turn to my 
fellow Commissioners and other Members for any remarks they wish to 
make. We will then shift to opening statements from witnesses, starting 
with Rabbi Baker, and then moving to questions from Commissioners and 
other Members.

  Prepared Statement of Hon. Roger Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    I would like to thank Chairman Smith for holding this timely 
hearing and for his leadership in combating anti-Semitism.
    Nearly 71 years after the end of the Holocaust, it is appalling 
that people are still being attacked and murdered because they are 
Jewish. Anti-Semitism is part of the Islamic State's brutal ideology. 
The terrorist organization's followers have already shown their 
willingness and ability to target and kill members of European Jewish 
communities. They join other jihadi groups like al Qaeda, who kill 
innocent people because of their religion, ethnicity, or race.
    Terrorists are not the only violent threats to European Jewish 
communities. Others also contributing to anti-Semitic violence include 
individuals in disaffected and marginalized communities, Neo-Nazis, 
nationalist political forces that exploit historical anti-Semitism, and 
ideologues who invoke the Israeli-Palestinian conflict to justify anti-
Semitic actions.
    Mr. Chairman, I would like to use this opportunity to mention 
another serious problem: Russia's manipulation and misrepresentation of 
issues related to anti-Semitism. Time and again, representatives of the 
Russian Federation have attended the OSCE Permanent Council in Vienna 
or the annual OSCE human dimension meeting in Warsaw. These individuals 
have portrayed those who oppose Moscow as fascists.
    Russia may make a great deal of noise about fascism and anti-
Semitism, but it continues to fund extremist, anti-Semitic parties like 
the National Front in France. It is therefore all the more important, 
Mr. Chairman, that hearings such as this are held.
    I have collaborated on these issues with my long-time friend 
Senator Ben Cardin, Ranking Member on this Commission, and the Special 
Representative on Anti-Semitism, Racism, and Intolerance for the OSCE's 
Parliamentary Assembly. We led Resolution 290, ``Commemorating the 75th 
anniversary of Kristallnacht, or the Night of the Broken Glass,'' which 
the Senate passed unanimously. The resolution reaffirms America's 
steadfast commitment to remembering the Holocaust and eliminating the 
evil of anti-Semitism.
    As Chairman of the OSCE Parliamentary Assembly's Committee on 
Political Affairs and Security, I will do my part to help ensure that 
combating anti-Semitism is integrated into OSCE initiatives against 
terrorism and violent extremism. I will also continue to monitor 
Russia's outrageous exploitation of the scourge of anti-Semitism.
    Mr. Chairman, thank you again for convening this hearing. I look 
forward to hearing from our witnesses.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Recent events indicate the clear need for strategies to ensure the 
global security of Jewish communities.
    Last year, after being appointed the OSCE Parliamentary Assembly's 
Special Representative on Anti-Semitism, Racism, and Intolerance, I 
visited with members of Jewish communities and others in Paris and 
Copenhagen, to hear directly from those most egregiously affected by 
the 2015 attacks. They not only expressed continuing security concerns, 
but a certainty that more attacks would occur. Despite government 
efforts to secure Jewish sites in the wake of the attacks, they 
questioned how long such security could realistically remain in place 
given the need to also secure larger society. Moreover, they questioned 
their future in a country where Jews and others could not live together 
without fear of violence.
    For some time, I have advocated for efforts that would address the 
root causes of anti-Semitism and stem the tide of violence. More 
resources have now been marshaled in this fight, from increased State 
Department funds to new initiatives at the OSCE spearheaded by the 
German Chairmanship. Human rights leaders from across Europe and the 
United States are now working together to address hate. I recently 
hosted young Muslim and Jewish leaders who were encouraging their 
communities to join forces. The OSCE has trained law enforcement 
officials across the region to recognize and prosecute anti-Semitic and 
other hate crimes across the region so that perpetrators know they will 
be punished.
    In addition to my position within the OSCE PA, the OSCE, EU, and 
many governments including our own have appointed officials to address 
anti-Semitism in our societies. I have long worked with the Department 
of State's Special Envoy on Combatting Anti-Semitism, Ira Forman, who 
unfortunately could not be here today. I am pleased that we are joined 
by the OSCE Chair-in-Office Personal Representative Rabbi Baker.
    Despite these best efforts, more must be done.
    We are currently witnessing a growth in extremist political 
rhetoric across the OSCE region, fueling an environment where 
expressions of hate are becoming increasingly more acceptable, and 
violence more frequent. For this reason I have advocated closer 
cooperation between the United States' government and European counter-
parts ?to combat anti-Semitism and other biases. Our countries have had 
a long history of cooperation in the military and economic spheres. 
It's now time to apply our common efforts to strengthen our societies. 
Our repeated failures to protect the most vulnerable are increasingly 
challenging the very tenets of our democracies, and leading to their 
erosion.
    Alongside hard power, governments must equally provide long-term 
investments in soft power, such that we no longer need to fear our 
neighbors--and there's something worth saving behind the walls we 
erect.
    Finally, efforts to promote the security of Jewish communities, or 
to combat anti-Semitism more broadly, depend on robust protections for 
democracy, the rule of law, and human rights: democracy and minority 
rights will stand or fall together.
    In this regard, I am troubled by reports that Princeton-based 
Holocaust historian Jan Gross was recently summoned and interrogated by 
Polish prosecutors. Apparently Polish law enforcement is concerned that 
Gross's remarks on war-time events in Poland may have ``insulted the 
Polish nation.'' If we are to combat anti-Semitism, we must be able to 
discuss it without fear of prosecution.
    I look forward to hearing the recommendations from our witnesses 
today on strategies to address the immediate safety concerns of Jewish 
communities. I also await your thoughts on what more we can be doing to 
shift societal attitudes so that there is no longer a need for enhanced 
security measures, and Jews can live as all others in our societies.

Prepared Statement of Rabbi Andrew Baker, AJC Director of International 
    Jewish Affairs, Personal Representative of the OSCE Chairperson

    At the outset, let me express my appreciation to this Helsinki 
Commission and to its Chairman, Representative Chris Smith, for the 
pioneering work you have done in identifying and addressing the problem 
of antiSemitism in Europe. You have taken the lead in pressing the 
United States Government and European States and in mobilizing the OSCE 
to confront this ageold scourge which has now presented itself in this 
century in yet new forms and manifestations.
    Sadly, one of the problems we have faced and we continue to face is 
that governments are slow to recognize the very problem itself, let 
alone to marshal the necessary resolve and expertise to confront it.
    Fifteen years ago at a meeting with American Jewish representatives 
in New York the French Foreign Minister argued strenuously that the 
vandalism and violent attacks on Jewish targets that were just then 
beginning to occur in France could not be considered antiSemitic. They 
were, he said, merely the random misdeeds of unemployed and disaffected 
youth from the suburbs that paid no special attention to their frequent 
neighborhood targets. He then allowed that, perhaps they could be 
understood as reflecting the anger of the youthful perpetrators who 
were witnesses to the daily suffering of the Palestinians by their 
Israeli occupiers, as broadcast on French television. But in this case, 
he said, they should be considered political actions rather than 
antiSemitic incidents.
    But it eventually became clear that Jews were singled out for 
attack. And this antiSemitism plain and simple could not be excused as 
some justifiable expression of antiIsrael views. Today no less a 
personage than the current Prime Minister of France says clearly and 
repeatedly that antiZionism and hatred of Israel are synonymous with 
antiSemitism.
    The comments of that French Foreign Minister were not an isolated 
example. Governments and even Jewish communities themselves in France 
and elsewhere were slow to recognize that early increase in antiSemitic 
incidents. Most governments lacked the mechanisms to identify and 
record hate crimes, and fewer still to label those that were 
antiSemitic in nature. Jewish organizations were only just beginning to 
develop their own tools to record incidents. And as we have come to 
learn, many of those incidents then and still now go unrecorded. So 
when the European foreign policy chief Javier Solana said to me in 
2002, when we discussed the problem of antiSemitism, ``I don't see 
it,'' he was correct. Most incidents were unreported, and most recorded 
incidents were not even identified as being antiSemitic.
    Although the problem of identifying the perpetrators of these 
antiSemitic attacks may be less ignorance than political correctness, 
at the time it was often asserted that many of them had particularly 
strong feelings about the Israeli-Palestinian conflict precisely 
because they or their families came from the region. In doing so, they 
were not trying to identify and address the problem, but instead to 
explain and excuse it. After the breakdown of an active peace process 
and with the Second Intifada there was increasing animosity toward the 
State of Israel shared by a growing number of political leaders and the 
general public, and fueled by what many considered a distorted and 
biased media. Perhaps the targets such as synagogues and Jewish schools 
were not appropriate, but the anger toward Israel that drove these 
youthful attackers was somehow considered understandable. For some, 
merely identifying a political motivation somehow separated it from the 
``genuine'' antiSemitism that would be used to define attacks on the 
very same victims carried out by rightwing extremists.
    Eventually, some balance was restored to this discussion. The very 
act of throwing a Molotov cocktail at a Jewish school bus defines it as 
antiSemitism, regardless of the particular motives of the bomb thrower.
    These early struggles on recognition and identification were 
reflected in the debates and deliberations of international 
organizations. The OSCE Parliamentary Assembly took the lead, and it 
was followed by the OSCE itself and the European Monitoring Centre on 
Racism and Xenophobia (EUMC).
    In 2004, the EUMC conducted its own survey on antiSemitism in the 
European Union. In interviews with Jewish leaders and representatives 
it found a high degree of anxiety and uncertainty. It also acknowledged 
the limited monitoring of antiSemitic incidents and hate crimes more 
generally, and it revealed that most of the EUMC's own country-by-
country monitors lacked even a working definition of antiSemitism.
    The Berlin Declaration adopted by the OSCE in April 2004 declared, 
`` . . .unambiguously that international developments or political 
issues, including those in Israel or elsewhere in the Middle East, 
never justify antiSemitism.'' It also expressed the commitment of all 
the participating States to collect and maintain data on antiSemitic 
hate crimes.
    While many speakers in Berlin did not mince words, the official 
declaration could only hint at the problem, noting that antiSemitism 
had, ``assumed new forms and manifestations.'' Everyone was aware that 
the ``new antiSemitism'' was a term used to describe the special animus 
being directed at Israel, whereby the Jewish State was demonized and 
its very legitimacy called into question.
    Scholars and practitioners increasingly focused on this, arguing 
that any understanding of present-day antiSemitism must take it into 
account. Only some months later, this was reflected in the Working 
Definition of antiSemitism adopted by the EUMC and intended to fill the 
need made evident from its own first survey. The Working Definition was 
comprehensive, and it was especially notable for including a section 
describing how antiSemitism manifests itself with regard to the State 
of Israel. This included calling Israel a racist endeavor, applying 
double standards, using classic antiSemitic images to describe it, and 
equating its actions to those of the Nazis. It also cited an 
increasingly common phenomenon where Jewish communities themselves were 
held responsible for the actions of the Israeli State.
    Since it was first issued in 2005, a growing number of governments, 
international organizations, and civil society groups have employed the 
Working Definition in their monitoring and education work, and others 
such as the InterParliamentary Coalition to Combat AntiSemitism have 
called for its adoption. Unfortunately, these efforts were stalled a 
few years ago when the EU Agency for Fundamental Rights (FRA), the 
successor to the EUMC, removed the definition from its website.
    At the same time, we can now cite the words of international 
leaders including Prime Minister Valls, President Obama, Prime Minister 
Cameron and Pope Francis that describe antiZionism as a form of 
antiSemitism. The Swiss Foreign Minister, Didier Burkhalter, during his 
OSCE Chairmanship in 2014 called the Working Definition a useful 
document for governments and civil society in understanding this 
phenomenon, and the current German Chairmanship has voiced a commitment 
to press for the greater use of it.
    Some people while acknowledging this new form of antiSemitism might 
still question its impact, dismissing it as just a matter of words. But 
that would be a mistake. We have seen how those words have 
consequences, where antiIsrael demonstrations have turned antiSemitic 
and then violent. They have had a corrosive effect on Jewish community 
security and have certainly caused many Jews to refrain from any public 
display of support for Israel or even their own Jewish identity.
    Of course it is second nature for Jews to worry. But there has been 
a change, and more and more European Jews themselves wonder about their 
future in Europe. We know this not just anecdotally but empirically, as 
a result of FRA's comprehensive survey of Jewish experiences and 
perceptions in eight EU States carried out in 2012. Nearly half of 
those surveyed worry about being a victim of an antiSemitic attack. 
Four in ten frequently or always avoid wearing anything in public that 
would identify them as being Jewish. And thirty percent have considered 
emigration because of the problem. We also learn from this survey that 
upwards of three quarters of antiSemitic incidents goes unreported. 
Even as more governments undertake to record antiSemitic hate crimes, 
very few of them seek to identify the perpetrators. Of those that do, 
they are usually defined in political terms--namely, those ascribed to 
rightwing populists or leftwing extremists. But in the FRA survey those 
who witnessed or experienced antiSemitism were offered a greater number 
of choices to identify the sources, and over fifty percent said they 
were people who hold, ``Muslim extremist views.''
    This reality--that many of the antiSemitic incidents that Jews are 
experiencing today especially in Western and Northern Europe are coming 
from parts of the Arab and Muslim communities--still remains a very 
difficult thing for some governments to acknowledge. Some may fear that 
by doing so one is labeling an entire religious or ethnic group, 
although that must not be the case. There may be a concern that this 
will add to the prejudice and discrimination that many Muslims in 
Europe already experience and provide further ammunition to rightwing 
extremist parties. And in the case of France, home to the largest 
Jewish community in Europe, there are legal restrictions on even 
identifying people by religion or ethnicity.
    But all of this leads to the same result. How can Jewish 
communities have faith that their governments will address a problem 
that cannot even be named?
    And some attempts to speak about this while maintaining political 
correctness actually exacerbate the situation. It may be described as 
an issue for and between Jews and Muslims--``intercommunal tension'' as 
one French Interior Ministry official termed it--as though this is 
somehow a problem for two minorities who bear equal blame. Some 
political leaders move immediately to the assumed prescriptions. We 
need to foster Jewish-Muslim dialogue, they say. There is no question 
that dialogue between Jews and Muslims (and between other religious and 
ethnic groups) is enormously valuable. But we should be clear. It was 
not the lack of dialogue that created the problem, and dialogue alone 
will certainly not solve it.
    Although survey data is limited, we can see from what is available 
in some countries that European Muslims often have a higher level of 
anti-Jewish prejudice than the majority of the society. This should not 
come as a surprise. As German Chancellor Merkel pointed out earlier 
this year, they or their families come from countries where attitudes 
toward Jews are quite negative.
    Acknowledging this is not to ascribe blame. It is the necessary 
first step to develop effective educational and public awareness 
programs to address the problem.
    That FRA survey of 2012 already reflected a high degree of anxiety 
and uncertainty about day to day comfort and security, but government 
authorities were slow in recognizing it or responding to it. Meeting 
with Dutch officials in The Hague, I was told that increasing security 
in front of synagogues could not be done unless similar steps were 
taken for churches and mosques. In Brussels, Belgian officials conceded 
that the threat levels to Jewish communal buildings were quite high, 
but said they did not have the money to protect them. When the subject 
came up in Copenhagen, I was told by Danish officials that they 
rejected a request by the Jewish community to position police in front 
of the synagogue and school because they had, as they put it, ``a 
relaxed approach to security.'' They were more concerned that the 
general public would feel uncomfortable if they saw armed guards in 
front of buildings.
    Tragically, it took the terrorist attacks in Paris and Copenhagen 
in early 2015 to awaken authorities to the fact that Jews and Jewish 
institutions were among the first targets of radical Islamist 
extremists. Fortunately, most governments have stepped up their defense 
of Jewish institutions. Heavily armed police now patrol in front of 
synagogues and schools in Sweden and Denmark. In France and Belgium the 
military has been mobilized to guard these same buildings. In the 
Netherlands mobile police trailers have been erected in front of each 
synagogue and communal building, although (inexplicably) the police are 
only there to monitor and cannot leave the trailers. Jewish communities 
are grateful for these measures, which were long overdue. But now it is 
time to evaluate and compare them, to determine which are most 
effective and efficient. And what are the long term implications? Can 
this level of security be sustained indefinitely? What is the impact on 
Jewish children and their parents when the daily trip to school is a 
walk through military barricades?
    The fear of radical Islamist extremists in Europe--and in America--
has become palpable after the November attacks in Paris and last 
month's bombings in Brussels. The task of identifying returning foreign 
fighters and those who are self radicalized or inspired by ISIS has 
been an enormous challenge to intelligence and law enforcement agencies 
throughout the West. It is further complicated with the realization 
that among the hundreds of thousands of genuine refugees fleeing 
wartorn Iraq and Syria, there are likely additional terrorists and ISIS 
propagandists. And even for the vast majority who harbor no terrorist 
inclinations, there are obvious questions about how to address the 
deficit in values such as secularity, pluralism and gender equality 
that are an essential part of our Western societies. Surely then, it 
should be no surprise that the steady diet of anti-Israel and 
antiSemitic propaganda which marked those Middle Eastern societies will 
not be easily corrected. Overwhelmed as many countries are with the 
physical tasks of providing for them, will they have the necessary 
resources and skills to genuinely absorb and assimilate these 
immigrants as well? Previous experience with smaller numbers over many 
more years makes it hard to be optimistic, but what then is the 
alternative?
    In the meantime, rightwing, populist movements are emboldened by 
the crisis. Longstanding parties such as the National Front in France 
and the Freedom Party in Austria see their numbers growing. New parties 
such as Alternative for Germany are filling the vacuum. Some of these 
extremist parties--notably Jobbik in Hungary and Golden Dawn in 
Greece--have made antiSemitism a main feature of their ideology. But 
even those which primarily feed on anti-migrant and anti-Muslim 
prejudices are cause for alarm. Bigotry cannot be compartmentalized, 
and the supporters of these parties are rather generous with their 
hatreds.
    That 2004 OSCE Berlin Declaration stated that antiSemitism poses a 
threat to democracy, to the values of civilization and to security in 
the OSCE region and beyond. That was both a warning and a more 
expansive reason (if one was necessary) that Jew hatred is wrong and 
must be confronted. Today there is ample evidence that this is true and 
that all are linked together. Yes, the struggle to combat antiSemitism 
is about ensuring that we have an environment that is safe and secure 
and nurturing of Jewish communal life and the lives of individual Jews. 
But it cannot be separated from--and in fact it is really the measure 
of--how successful we will be in preserving the democratic and 
pluralist values which all of us holds dear.

    Rabbi Andrew Baker is Director of International Jewish Affairs for 
the American Jewish Committee. In this position he is responsible for 
maintaining and developing AJC's network of relationships with Jewish 
communities throughout the Diaspora and addressing the accompanying 
international issues and concerns. He has been a prominent figure in 
addressing Holocaust-era issues in Europe and in international efforts 
to combat anti-Semitism.
    In January 2009 he was appointed the Personal Representative of the 
OSCE Chairperson-in-Office on Combating Anti-Semitism and has been 
reappointed in each successive year. The Organization for Security and 
Cooperation in Europe, an intergovernmental body of 57 nations 
headquartered in Vienna, has become a central arena for addressing the 
problems of a resurgent anti-Semitism.
    He has played an active role in confronting the legacy of the 
Holocaust. He is a Vice President of the Conference on Jewish Material 
Claims against Germany, the Jewish umbrella organization that has 
worked on restitution issues for over half a century. In 2003 he was 
awarded the Officer's Cross of the Order of Merit (First Class) by the 
President of Germany for his work in German-Jewish relations. He was a 
member of Government Commissions in both the Czech Republic and 
Slovakia that were established to address the claims of Holocaust 
Victims.
    He was a founding member of the National Historical Commission of 
Lithuania and involved in restitution negotiations there. He currently 
serves as co-chairman of the Lithuanian Good Will Foundation, 
established in 2012 to administer communal compensation payments. In 
2006 the President of Lithuania presented him with the Officer's Cross 
of Merit for his work, and in 2012 he was awarded the Lithuanian 
Diplomacy Star. For similar work he was awarded the Order of the Three 
Stars by the President of Latvia in 2007. He helped the Romanian 
Government establish a national commission to examine its Holocaust 
history and served as one of its founding members. For this work he was 
awarded the National Order of Merit (Commander) by the President of 
Romania in 2009.
    Rabbi Baker directed AJC efforts in the development and 
construction of the Belzec Memorial and Museum, a joint project of AJC 
and the Polish Government on the site of the former Nazi death camp in 
Southeastern Poland. In May 2006 he was appointed by the Prime Minister 
of Poland to a six-year term on the International Auschwitz Council, 
the official governmental body that oversees the work of the Auschwitz 
State Museum.
    A long-time resident of Washington, DC, Rabbi Baker has served as 
President of the Washington Board of Rabbis, President of the 
Interfaith Conference of Washington and Commissioner on the District of 
Columbia Human Rights Commission. He has also served as a 
congregational rabbi in Chicago and a chaplain at San Quentin Prison in 
California.
    A native of Worcester, Massachusetts, Rabbi Baker received a B.A. 
from Wesleyan University and a Masters' Degree and Rabbinic Ordination 
from Hebrew Union College-Jewish Institute of Religion in New York 
City. He is the father of four children.

  Prepared Statement of Jonathan Biermann, Executive Director, Crisis 
                 Cell for the Belgian Jewish Community

    The presence of Jews in Belgium can be traced from the 1st century 
A.C. and is confirmed during the 13th century. The religious 
institutions were organized under French authority and Napoleon created 
the Consistory organizing the cult before the establishment of the 
Kingdom of Belgium.
    With two main locations, the Antwerp community is for its majority 
composed by orthodox movements (comparable to the communities 
established in New York or in Israel) while Brussels is more secular 
with vivid institutions and approximately 20,000 individuals in a city 
of 1.1 million.
    Allow me to describe the current atmosphere among Belgian Jews: 
Community members are nowadays used to seeing police, guards, military 
in front of Jewish buildings and schools. It has been so for decades 
and I would say that although it is not a normal situation for a well 
integrated community, it is a relief to know that the risks on the 
Jewish community are assessed and taken seriously, in the limits of the 
governments capacities.
    Yet the situation is worrying as the statistics compiled by the NGO 
Antisemitisme.be (data are also used by Study centers and universities, 
International institutions (OSCE), Daily contacts with the Interfederal 
Center for Equal Opportunities) show the following:
    The level of hatred has not been so high since 1945 (raise of 70% 
in 2014 compared to 2016:
    <bullet>  Anti-Semitic discourse spreads in an unprecedented 
extent, especially in internet.
    <bullet>  A new phenomenon of discrimination is targeting the 
Jewish individuals
    <bullet>  and violence has reached an unprecedented level of horror 
as were killed in the terrorist attack of the Brussels Jewish Museum 
(May 24 2014)
    <bullet>  A major survey among Flemish teenagers has indicated that 
anti-Semitism is seven times more prevalent among Muslim youths than in 
non-Muslim teenagers (Mark Elchardus and Johan Put, Jong in Brussel. 
Bevindingen uit de JOP-monitor, Acco, Leuven, 2011).
    <bullet>  In the last two years, the press denounced anti-semitic 
incidents in public schools, including with teachers making anti-
semitics problems. As a consequence, for several years, jews are 
leaving public schools for Jewish schools which increases the distance 
between jews and non-jews in what should remain a community where 
diversity in promoted.
    <bullet>  Jewish life in Europe is part of its diversity. As we 
also know from the Fundamental Rights Agency Survey, an increasing 
number of Jews feel less and less comfortable attending Jewish events 
and institutions.
    In such a situation, and I will express a personal opinion on this 
matter, the propagation of radical Islam is the symptom of the failure 
in education specifically within the younger generation of the Muslim 
community.
    Many causes and effects can be described. But to stay focused on 
our purpose, it also results in mistrust and suspicion in the 
relationship existing between the community and the police, 
intelligence and law enforcement agencies.
    Having the opportunity to observe the work and expertise of John 
Farmer and Paul Goldenberg, the Institute for Emergency Preparedness 
and Homeland Security, the Faith- Based Communities Security Program at 
Rutgers University and their international partners, I am convinced 
that sharing best practices in the implementation of the ``See 
something Say something strategy'' is of crucial importance.
    Such a strategy should be implemented at the level of each 
community as at the level of the broader community.
    The communication channels established between communities and the 
authorities, government and law enforcement agencies would participate 
in the establishment of a more balanced society based on respect and 
mutual understanding.
    Sharing concern about what is happening in the various communities 
is a fundamental step which has to be followed by action. Creating the 
tools to communicate amongst communities with the government will be 
considerably facilitated by the ``See something Say something 
strategy.''
    The collaboration with law enforcement agencies has to be based on 
trust and confidence, in respect of international laws and rules 
protecting individual freedom, civil liberties and privacy.
    Communication channels, types of intelligence collected by each 
actor must be clearly defined. The protocols existing in the US, the UK 
and France should be a reference for local police and national law 
enforcement agencies empowering local communities.
    The situation of local communities and the relationship with the 
authorities should be regularly assessed.
    Taking the example of Brussels after the attack on the Jewish 
Museum, emergency planning and communication with local police have 
worked properly. Lessons have now to be taken in order to structure the 
coordination.
    Establishing a Memorandum of Understanding would now be an 
important step and should be based on what is already implemented in 
neighboring countries like France.
    At this stage, communal leadership is crucial as operational and 
symbolic choices have to be made.
    Considering the risks assessing the threats and knowing that public 
resources are limited (especially in the days following the terrorist 
attacks that occurred in Brussels on March 22), what decisions should 
be taken about the activities planned?
    In this case, security challenges the constitutional principle of 
freedom of religion.
    Who should take responsibility?
    Confidence and collaboration should guide community leadership, law 
enforcement agencies and political leaders in the decisionmaking 
process.
    Fortunately enough, political statements have also been of great 
determination in condemning Antisemitism and violence. The Belgian 
Government has provided public funding to improve the physical 
protection of buildings used by the Jewish community.
    As a conclusion, I would underline the necessity of establishing 
the terms of reference that European governments should use. 
International organizations and agencies are a key player in that 
matter.
    I personally believe that the OSCE could develop a platform to 
exchange good practices and confront the approaches and strategies in 
fighting an external threat with domestic impact and support.
    I would finally formulate the following recommendations:
    <bullet>  Implement ``If you see something, Say Something'' with 
Jewish Communities as pilots
    <bullet>  Empower Jewish Communities by establishing a MoU defining 
the collaboration between law enforcement agencies and Jewish 
communities
    <bullet>  Never banalize Antisemitism

    Annex: List of Antisemitic terrorist attacks in Belgium:
    <bullet>  In 1980, grenades were launched in Antwerp on a group of 
Jewish children, one is killed.
    <bullet>  On 20 October 1981 a car bomb outside a synagogue in 
Antwerp killing three and sixty wounded.
    <bullet>  In 1982, a gunman opened fire at the entrance to the 
Great Synagogue of Brussels and injured four people.
    <bullet>  In 1989, Dr. Joseph Wybran, chairman of the Jewish 
Organizations Coordinating Committee of Belgium is assassinated.
    <bullet>  Several places of worship in Brussels, Antwerp and 
Charleroi are attacked in 2002.
    <bullet>  In June 2003, a person tries to blow up the synagogue in 
Charleroi.
    <bullet>  May 24, 2014, individual broke into the Jewish Museum of 
Belgium in Brussels and killed two tourists, volunteer and an employee.

    All Antisemitic incident is officially recorded by 
www.Antisemitisme.be

    Jonathan Biermann is a lawyer admitted to the Bar of Brussels. He 
has been a Member of the City Council of the Municipality of Uccle in 
Brussels since 2006 and an Alderman in the same municipality since 
2012.
    He was the Political Adviser to the President of the Belgian 
Senate, the Development Minister, and the Minister of Foreign Affairs. 
As Political Adviser, Biermann was responsible for politicomilitary 
issues, combating Anti-Semitism, and the broader fight against 
intolerance.
    While obtaining his law degree at the Free University of Brussels, 
Biermann was Chairman of a students' association ``Circle of Free 
Inquiry'' and then Adviser to the Rector for cultural affairs. Since 
July 2015, Jonathan has been the President of the Alumni of the 
University.
    Biermann comes from a family that is very involved in the Jewish 
community and was born and raised in Brussels. After being involved in 
various cultural organizations, he was appointed to establish the 
crisis plan of the Jewish community. He is the executive director of 
the crisis cell of the Jewish community and was in charge of the cell 
at the time of the attack on the Jewish Museum on May 24th 2014.

Prepared Statement of John J. Farmer, Jr., Rutgers University Professor 
                                 of Law

    Mr. Chairman and distinguished Helsinki Commission Members: Thank 
you for this opportunity to testify today on the subject of 
``Anticipating and Preventing Attacks on the European Jewish 
Communities in Europe.'' Today's hearing comes at a critical juncture 
in the struggle against transnational terrorism, in the history of the 
Jewish communities in Europe, and in the progress of civilization in 
securing the safety of vulnerable communities worldwide.
    My name is John Farmer. I am currently a University Professor of 
Law at Rutgers University. Prior to my current position, I served as 
Rutgers University Counsel, as Dean of Rutgers School of Law-Newark, as 
a partner in two law firms, as Senior Counsel to the 9/11 Commission, 
as New Jersey's Attorney General, as Chief Counsel to Governor Whitman, 
and as a federal prosecutor.
    Of most relevance to today's hearing, I was the chief law 
enforcement officer in New Jersey on 9/11, a day when our state lost 
some 700 of its citizens. I can never forget that day, or the sense of 
failure and disbelief I felt that such an attack could have succeeded. 
Understanding exactly what went wrong and how public safety can be 
protected during a terrorist attack or other crisis has been a focus of 
my work in the years since.
    As Senior Counsel for the 9/11 Commission, I had the opportunity to 
study the crisis as it was experienced in real time by everyone from 
the President to the evacuating civilians in New York's Twin Towers. I 
wrote a book, ``The Ground Truth,'' comparing the response on 9/11 to 
the response to Hurricane Katrina, and found disturbing parallels 
between the way the government reacted to a complete surprise attack 
and the way it reacted to a storm that had been anticipated for years 
and for which detailed plans were in place.
    The responses to both events, I found, failed to take account of 
the fact that, as stated in The 9/11 Commission Report, ``[t]he `first' 
first responders on 9/11, as in most catastrophes, were private-sector 
civilians. . . [P]rivate-sector civilians are likely to be the first 
responders in any future catastrophes.'' (The 9/11 Commission Report, 
at 317.) Among trained emergency personnel like police, fire, and EMTs, 
moreover, both crises demonstrated that ``critical early decisions will 
have to be made by responders who are not the top officials. . . 
Planning for a crisis should accept that reality and empower and train 
people `on the ground' to make critical decisions.'' (John Farmer, The 
Ground Truth, at 324.)
    The truth of that observation has been borne out in subsequent 
attacks ranging from the London subway bombing to the murders at the 
Jewish museum in Brussels to the murders at the kosher grocery store in 
Paris to the most recent attacks at the Paris cafes, stadium, and 
concert hall and at the Brussels airport. As the threat has become more 
diffuse, and the attacks less predictable, I believe the following 
conclusion has become inescapable: Anticipating and preventing attacks 
on European Jewish communities--or, for that matter, on any vulnerable 
communities--will be impossible without a dramatically greater 
engagement of law enforcement with the affected communities and people, 
and of the affected communities and people with each other.
    For the past nearly two years, I have had the privilege of leading, 
along with Rutgers Professor of Criminal Justice John Cohen, formerly 
Counterterrorism Coordinator for the Department of Homeland Security, 
an initiative at Rutgers University designed to identify the best ways 
to protect vulnerable communities in light of the evolving threat. 
Funded generously by Rutgers alumnus Paul Miller, former general 
counsel of Pfizer, and his family, Rutgers began what we have called 
the Faith-Based Communities Security Program two years ago by taking a 
close look at the evolving threat, and by taking an equally close look 
at the security situations of several European Jewish communities. To 
assist us, we have had the privilege of working with subject matter 
experts like Paul Goldenberg, Rabbi Baker, Sean Griffin, recently 
retired as Counterterrorism Coordinator for Europol, and Richard 
Benson, who helped establish the Community Security Trust in Great 
Britain.
    The reasons for our initial focus on the European Jewish 
communities are two-fold. First, because the European Jewish 
communities are the original diaspora communities, and have survived in 
parts of Europe despite attempts to eliminate them for over two 
thousand years, we believe that these communities have much to teach 
other vulnerable communities about security and resilience.
    These lessons are particularly important, in our view, because the 
demographics of our world have been transformed within our lifetimes; 
according to estimates that predate the recent Syrian refugee crisis, 
over 20 percent of the world's people now live in a nation other than 
where they were born. That amounts to well over a billion people trying 
to adapt to foreign cultures. The world of the future is therefore a 
diaspora world, a world of vulnerable communities.
    Second, we thought it would be instructive to look at European 
Jewish communities now because, as Jonathan Biermann, Paul Goldenberg 
and Rabbi Baker will describe in greater detail, they have been under 
renewed stress in Europe as a consequence of Islamist radicalization 
and, to a lesser but persistent extent, age-old European anti-Semitism. 
The occurrence of anti-Semitic incidents had spiked dramatically, 
culminating in the murders at the Jewish Museum in Brussels shortly 
before we began our study.
    The threat evolved and became more deadly even as we undertook our 
work. Indeed, the urgency of our work has escalated with each new 
attack. A team from Rutgers was on the ground in Paris during the Paris 
attacks of 2015 and in the aftermath of December's attack, in the 
aftermath of Copenhagen's attack, in the weeks preceding the Brussels 
attacks last month, and also in sensitive locations such as Malmo, 
Stockholm, Amsterdam, London, Prague, Vienna, and Budapest. In those 
locations and others we have met and consulted with Jewish community 
security leaders and representatives of law enforcement, the 
governments, and civil society.
    At the same time, we have worked with U.S. communities and law 
enforcement partners to develop what FBI officials have called an 
``off-ramp'' from radicalization: an adaptable, multi-disciplinary 
intervention strategy to attempt to identify precursor conduct and 
enable communities to protect themselves and each other. The 
development of such strategies is impossible without a high level of 
public, community, and civil society engagement with law enforcement.
    We did a read-out of preliminary findings at a conference last year 
in Washington, co-sponsored by the International Association of Chiefs 
of Police, the Bipartisan Policy Center, and Rutgers, and hosted by the 
FBI at its headquarters. We also had the opportunity to describe our 
work at the Hague to an audience of European police chiefs. As a 
consequence of that meeting, we had planned to conduct a follow-up 
summit at Europol headquarters this summer.
    But the time for conference-level discussion is over. The recent 
attacks in Paris and Brussels have made more urgent the need to take 
action now to protect vulnerable communities. The situation on the 
ground has become dire; the challenge to the Jewish communities has 
become nothing less than existential. Many stalwart leaders have become 
ambivalent about remaining in Europe at all.
    The communities have become caught in a double-helix of hate, in 
which terrorist attacks energize the forces of xenophobia and 
nationalism, which have tended historically to turn eventually on the 
Jewish communities. The only thing the Islamist terrorists have in 
common with such forces is that both hate the Jews. In short, this is a 
time of particular peril for the Jewish future in Europe, and it is 
incumbent upon us to do what we can to assure that future.
    Why?
    In addition to the fact that assisting these communities is simply 
the right thing to do, in my view the future of our world of vulnerable 
communities is at stake. If the oldest diaspora community in the world 
cannot survive in a place where it has lived for longer than two 
thousand years, in a place where it survived the Nazis, the future of 
other vulnerable communities can only be described as bleak. The 
wholesale slaughter of Christians and nonconforming Muslims in Syria 
and Iraq and elsewhere begins to look less like isolated atrocities and 
more like a harrowing vision of our children's future.
    After consulting with our European partners in Brussels, 
Copenhagen, London, the Hague, and elsewhere, we have decided to take 
action now in the following ways that are a direct outgrowth of our 
work.
    FIRST, with the encouragement of law enforcement and the affected 
communities, we will be traveling back to Brussels and Copenhagen in 
the coming weeks to explore concrete ways in which we might assist the 
Jewish and other vulnerable communities and law enforcement in working 
together to enhance public safety. At a meeting of the OSCE last spring 
in Vienna, many joined the representative of France in calling for some 
variation of ``if you see something, say something'' training and 
public engagement as an essential step in improving public safety. The 
need for a similar kind of civil defense approach has grown with each 
attack since then. We are working on refining that approach to meet the 
needs of individual communities. But our assistance extends beyond that 
program.
    SECOND, with a view to their application to all vulnerable 
communities, we are writing and plan to publish online this summer the 
Rutgers Guide to Protecting Vulnerable Communities. This work will 
provide a distillation of best practices that we have identified in the 
course of our work. These practices are adaptable to other vulnerable 
communities and to various law enforcement structures around the world. 
They will represent our assessment of the most effective ways in which 
governments and communities can work together to provide safety for 
vulnerable populations. They range from relatively obvious and easily 
adaptable steps--the creation of crisis management teams within 
communities; regular exercising in crisis management; facilities audits 
to ensure that potential soft targets are hardened--to more challenging 
but essential steps, such as regular communication with law 
enforcement, training of individuals to identify potential threats, and 
outreach to other vulnerable communities and elements of civil society 
in order to develop effective approaches to intervention. The guide 
will be available to all, and we plan to offer on the ground assistance 
to those who request it, within our means.
    THIRD, we plan to focus our efforts on filling a need that has been 
highlighted in the United States and in every country we have visited, 
and echoed by communities, government officials and members of the 
private sector alike: improved information sharing of open source and 
social media information. After having consulted with current and 
former law enforcement officials as well as having heard the concerns 
of the faith community, NGOs, and private sector entities, I believe 
that a lasting contribution of our project to public safety may well 
lie in facilitating the more efficient sharing of critical open source 
information with faith-based communities, NGOs, human rights 
organizations, and the private sector.
    This effort would not be meant to replace, but rather to 
complement, governmental information-sharing efforts which, while 
admirable, have a necessarily different and primarily law enforcement 
focus. Such an effort will be fundamental to promoting the enhanced 
level of public engagement that I believe is required in order to 
protect public safety.
    Mr. Chairman, our work in Europe, and the recent attacks in Paris 
and Brussels, has underscored the ground truth of every attack and 
natural catastrophe since 
9/11: it is more essential now than ever that the public be engaged at 
every level in its own protection. As FBI Director Comey and other law 
enforcement leaders have recognized for over a year now, the threat to 
public safety is evolving; law enforcement can no longer act alone--if 
it ever truly could--in combating it. A better informed, trained, and 
engaged community is a safer community.
    We are committed to providing the education, information, and 
training that will enable the Jewish and the vulnerable communities of 
other cultures and beliefs, wherever they are threatened and whenever 
they ask, not just to survive but to flourish. The stakes for the 
Jewish and other vulnerable communities today cannot be higher; if done 
right, however, the rewards from these efforts will be reflected in a 
safer and more peaceful future for all.
    Thank you again, Mr. Chairman, for this opportunity.

    John Farmer became dean of Rutgers School of Law-Newark in July 
2009. From April 2013 until June 30, 2014 he was on a leave of absence 
to serve as Senior Vice President and University Counsel. He returned 
to the faculty as University Professor, effective July 1, 2014. 
Professor Farmer continues to hold an administrative post as Special 
Counsel to the President.
    Professor Farmer received his J.D. from Georgetown University Law 
Center, where he was a member of The Tax Lawyer and received first 
prize in the 1984 Lincoln and the Law Essay Contest. He received his 
B.A. from Georgetown University, with a major in English. He began his 
career as a law clerk to Associate Justice Alan B. Handler of the New 
Jersey Supreme Court. He then worked for two years as a litigation 
associate at Riker, Danzig, Scherer, Hyland & Perretti LLP before 
joining the Office of the U.S. Attorney in Newark, where he prosecuted 
crimes ranging from kidnapping and arms dealing to bank fraud. In 1993 
he received the U.S. Attorney General's Special Achievement Award for 
Sustained Performance.
    Professor Farmer joined the administration of New Jersey Governor 
Christine Todd Whitman in 1994, serving as assistant counsel, deputy 
chief counsel, and then chief counsel. From 1999-2002 he was New Jersey 
attorney general. Among his noteworthy accomplishments, he argued 
school funding and criminal justice matters before the New Jersey 
Supreme Court and the Third Circuit Court of Appeals; moved forward 
with reform of the New Jersey State Police, from eliminating racial 
profiling to increasing diversity in recruitment and promotion; created 
the Office of Inspector General to investigate allegations of official 
impropriety and/or corruption; and served as the first chairman of the 
New Jersey Domestic Preparedness Task Force, leading the coordination 
of the state's law enforcement and victim/witness response to the 
terror attacks of September 11, 2001.
    From 2003-2004 Professor Farmer served as senior counsel and team 
leader for the National Commission on Terrorist Attacks Upon the United 
States (commonly known as the 9/11 Commission). In that position he led 
the investigation of the country's preparedness for and response to the 
terrorist attacks and was a principal author of the Commission's final 
report. His book, ``The Ground Truth: The Untold Story of America Under 
Attack on 9/11,'' a reconsideration of the government's 
9/11 response in light of its response to Hurricane Katrina, was 
published by Riverhead/Penguin Press.
    Professor Farmer has received the highest peer-reviewed rating from 
Martindale-Hubbell, and has been named a New Jersey Super Lawyer, one 
of New York Magazine's Best Lawyers in the New York area, and one of 
the Best Lawyers in America. He was a partner in the white collar crime 
and internal investigations group at K&L Gates and in 2007 became a 
founding partner of the law firm Arseneault, Whipple, Farmer, Fassett 
and Azzarello, LLP. In addition to his law practice, in 2008 he served 
as senior advisor to General James Jones, Special Envoy for Middle East 
Regional Security, on development of the rule of law in the Palestinian 
Authority territory, and was invited by the U.S. Embassy in Armenia to 
assist that nation's legislative commission in investigating widespread 
violence and unrest following its elections.
    Professor Farmer has been a frequent contributor to the Star-Ledger 
and the New York Times, with essays and opinion columns on legal and 
political issues, and has had articles published in the Rutgers Law 
Review, Seton Hall Law Review, and other journals. His article on the 
Patriot Act, ``At Freedom's Edge,'' was part of a Star-Ledger series 
that was awarded the American Bar Association's Silver Gavel Award for 
outstanding legal reporting in 2006. Dean Farmer has also lectured 
extensively on post 9/11 safety and security issues, and spoken on 
panels at Harvard Law School, the University of Southern California, 
Willamette Law School, and Johns Hopkins University's Paul Nitze School 
of Advanced International Studies.
    Professor Farmer is president of the board of trustees of the New 
Jersey Institute for Social Justice and a former member of the New 
Jersey Governor's Ethics Advisory Board.

   Prepared Statement of Paul Goldenberg, National Director, Secure 
                           Community Network

    Good Afternoon, Ladies and Gentlemen. My name is Paul Goldenberg. I 
currently serve as a senior advisor to the United States Department of 
Homeland Security as a member of the Secretary's Homeland Security 
Advisory Council (HSAC). In that capacity, I serve on the Countering 
Violent Extremism Sub-Committee, Co-Chair the Foreign Fighter Task 
Force and am Vice-Chair of the Faith-Based Advisory & Communications 
Sub-Committee. In addition, for the past decade, I've served as the 
National Director of the Secure Community Network (SCN), the official 
national homeland security initiative of the American Jewish community. 
Working under the auspices of The Jewish Federations of North America 
and the Conference of Presidents of Major American Jewish 
Organizations, we serve to connect the 151 Federations, 300 network 
communities and over fifty organizations that make up these entities 
with vital information, intelligence and resources to best ensure the 
safety and security of the Jewish community, here in the United States.
    In addition to these efforts, I have had the recent privilege of 
working closely with the Faith-Based Communities Security Program at 
Rutgers University. As a part of this new initiative, and working under 
the leadership of former New Jersey Attorney General John Farmer, I 
have made countless trips in recent months overseas, traveling to 
multiple European cities. Through these trips, I have been able to gain 
a first-hand understanding of the current climate, hearing the concerns 
of communities who are under threat, and assessing what can do to best 
assist them. What we have seen, heard and learned has confirmed our 
initial hypothesis: while the levels of cooperation and partnerships 
between Jewish and other minority religious communities with their 
respective policing services--in many parts of Europe--is as diverse as 
the communities themselves, more work needs to be accomplished to move 
closer to a medium and standard of safety and security. While this 
presents distinct challenges, there is also hope. For much of what we 
have learned, innovated, tested and improved upon here in the United 
States, as well as in other progressive nations, can be imparted to, 
and replicated by, many of our partners.
    Mr. Chairman: thank you for the opportunity to testify today about 
the current state of affairs in Europe, specifically the alarming 
levels of anti-Semitism impacting Jewish communities but, more broadly, 
acts of targeted violence, extremism and terrorism impacting both 
vulnerable communities as well as the broader public. I am both proud 
and honored to be here with such a distinguished group of colleagues, 
today. I applaud you and the Commission for its steadfast commitment 
and unwavering support towards ensuring that human security dimension 
remains an enduring right of all people, particularly during such 
challenging times.
    I speak to you today not as an academic, but as a practitioner--as 
a former law enforcement executive who has personally seen the impact 
of hate crimes, acts of targeted violence, extremism and terrorism. I 
began my career over thirty-five years ago walking the beat, a rare 
American Jewish cop on the streets of Irvington, New Jersey. I retired 
as Chief of the New Jersey Attorney General's Office of Bias Crimes and 
Community Affairs, the first-of-its-kind office in the nation.
    In 2004, I was appointed by the Chairman as a senior law 
enforcement advisor to the Organization for Security Cooperation in 
Europe (OSCE). In that capacity, I had the honor of working with law 
enforcement officials and community leaders in nearly 10 European 
countries, working hand in hand to combat anti-Semitism, xenophobia, 
extremism and domestic terrorism. As a law enforcement professional who 
spent over twenty years working on the issues we are discussing today, 
what I can tell you is that, over seventy years after the fires of 
National Socialism in Europe were extinguished, sadly, disturbingly and 
dangerously, the embers of that hatred still glow. In some places, they 
burn. Fires can move quickly. Engulfing things rapidly. Unless we act, 
we risk allowing the fires of hate to kindle further. To move faster. 
To reach farther.
    Jewish communities in Europe have long been targeted. But much more 
than simply the target of hate, they represent something else. They 
have often acted as the proverbial canaries in a coal mine, forecasting 
larger problems and issues. . . foreshadowing broader concerns for 
other communities. In this, recent events--from the attacks in Paris 
against Jewish targets to the potential targeting of Jewish people in 
Brussels--are not a new phenomenon for Jewish communities, across 
Europe. Rather, the most recent attacks merely represent the 
continuation of targeted violence that has changed the way in which--as 
a community--they function, from the way religious institutions and 
schools approach gatherings to what community members wear in public.
    Highlighting these issues, the Anti-Semitism Report for 2014 saw a 
significant increase in anti-Semitic incidents worldwide and found that 
local governments are often not doing enough to eradicate the incidents 
and violence. The report also notes that 2014 showed a marked increase 
in terrorism as well as unprecedented violent attacks against Jewish 
targets:
    <bullet>  Some 55% of respondents do not feel safe in their own 
country and are afraid to walk around with Jewish symbols in the 
street.
    <bullet>  In the United Kingdom, 45% of respondents reported that 
they do not feel safe in their own country and about 37% of respondents 
are afraid to walk around with Jewish symbols.
    In the span of two decades, we've moved from swastikas on 
buildings, the desecration of graveyards and simple assaults, as well 
as long-standing institutionalized anti-Semitism, to brutal violence, 
commando-style shooting attacks and even suicide bombings on the 
streets of Europe by battlefield-trained terrorist cells and 
organizations.
    From the 2006 torture and killing of Ilan Halimi, to the schoolyard 
slaughter of Jewish children in Toulouse, France in 2012 to the attack 
against the Brussels Jewish Museum, largely viewed as the first ISIS-
related attack in Europe, and nearly two years before many European 
countries recognized ISIS-trained operatives were immersed across the 
continent. The list goes on. The escalation of these attacks, from 
seemingly isolated incidents against Jewish communities and military 
targets, has materialized into a recurring phenomenon where no soft 
targets, including children, are safe. ``Soft targets''--once thought 
of as safe havens and sanctuaries--have become the chosen targets of 
hatred and violent extremism. and Jewish affiliated locations, 
organizations and people, the preferred victims.
    Unfortunately, some communities have imported the Middle Eastern 
conflict into their host countries, with attending acts of violence and 
unbridled anti-Semitism toward local Jewish communities which had 
otherwise lived peacefully except during the Holocaust interregnum. 
While these events are not without precedent, the pace, frequency, and 
scale should be setting off alarms not just in Europe, but here in the 
U.S.
    According to the annual Terrorism and Political Violence Map 
released by Aon Risk Solutions just last week, ``2015 was the most 
lethal year for terrorist violence in Europe in nearly a decade.'' Over 
the past year, France in particular has been on the frontlines of this 
battle, experiencing multiple mass casualty attacks within the span of 
eight months including one of the worst terrorist attacks in French 
history.
    In the past few years, we have watched as a storm has been brewed. 
Growing anti-Semitism, xenophobia, attacks against religious 
institutions by those inspired by Jihad, and now ultra-nationalism, is 
growing unlike anything we have seen since the 1930s.
    This vortex has spawned not just a threat to select vulnerable 
communities and populations in Europe, but poses an overarching threat 
to human security and the safety and security of free and open 
societies where citizens enjoy the right to worship and gather freely 
without intimidation, fear and harm. When citizens of free countries, 
including our own, no longer feel safe in their houses of worship.this 
is a direct threat to a nation's democracy and freedom.
    But, as so many have watched the storm brew. . . few did little, if 
anything, to prepare. For some, it now appears that we have little more 
at our disposal than an umbrella. . . for a hurricane.
    What is at risk from this threat? This new reality?
    In a sense, it is the very fabric and spirit of these democratic 
societies and the collaborative, cooperative and trusting relationships 
between authorities and the communities they're sworn to protect.
    The passage of House Resolution 354, ``Expressing the Sense of the 
House of Representatives Regarding the Safety and Security of Jewish 
Communities in Europe'' is a watershed moment that has reinvigorated 
and will provide much needed support to enable much needed 
collaboration with our European partners. It is the formalization of 
this resolution, Mr. Chairman, and years of tireless work leading up to 
it, which has provided us with the impetus and roadmap to truly 
operationalize these public-private capacity building and community 
engagement efforts across the EU.
    An epidemic that plagues Europe requires a transnational approach 
and commitment to working across borders and jurisdictions to 
effectively combat the threat. Our effort proposes a comprehensive 
approach that would connect the Jewish and other communities, law 
enforcement and other mechanisms of civil society in identifying the 
specific challenges facing the communities of Europe from the 
perspective of organizational structure, training, awareness efforts, 
standardized technologies, and coalition building.
    The effort will then develop operational recommendations for 
partnership building, exchanging good practices, providing critical 
security awareness training, based on strategies that have been 
developed over time in Europe, Israel, the United States and elsewhere, 
and that can be effective in confronting the identified challenges. One 
of the most critical outcomes of the effort would be a formalized 
recognition and relationship between those responsible for Jewish 
communal security and the policing agencies that vow to protect them.
    Inherent in this effort will be the sensitization of law 
enforcement to the issues, engaging the men and women of those agencies 
to work to build trust between the police and the communities of 
Europe. . . their communities. Committing themselves to undertake a 
partnership to address the threats on an ongoing--as opposed to an ad-
hoc--basis; as attacks on Europe's diverse, distinct and various 
religious communities continue, the police will be increasingly called 
upon to respond to these attacks in more resolute ways. This effort 
will require the engagement and coalition support of regional governing 
bodies, policing consortiums and non-governmental organizations with 
deep experience in combatting anti-Semitism, xenophobia, violent 
extremism and terrorism; it will include leadership and security heads 
of European Jewish communities, along with the OSCE, European Union, 
Europol and Interpol. Developing an organic strategy is paramount to 
the success of this initiative. This is particularly critical as those 
targeting Jewish institutions and other communities have often, and 
seemingly successfully, influenced some within the public and private 
sector with the belief that Jewish institutions are not part of the 
fabric of European society; that they are nothing more than an 
extension of some foreign government whom are represented by its 
security, intelligence and military activities.
    Nothing could be farther from the truth; these Jewish communities 
are a part of Europe. and they have been for hundreds of years and 
despite a history replete with efforts to expel, exterminate or simply 
excoriate them.
    Focusing on collaborative partnerships and the protection and 
preservation of shared, common values can--and will--trump suspicions 
and differences. We will work collectively to promote community 
cohesion. Despite religious, ethnic and cultural differences, we've 
achieved success in rallying around the common shared values of 
protecting our houses of worship and safeguarding our children; both 
from becoming victims of violence and being lured, inspired and 
radicalized to become perpetrators of that same violence. While law 
enforcement and policing services, taking on roles as agents of social 
change and a visible extension of their governments' interests in 
protecting its people, are integral to this process and solution, 
community participation, engagement and responsibility are paramount to 
achieve success. As we've experienced here at home with our own diffuse 
and evolving terrorism threat, law enforcement cannot tackle this 
burden alone.
    <bullet>  As such, educating and empowering communities to become 
active participants and stakeholders in their own safety and security 
pays measurable dividends in contributing to the safety and security of 
the neighborhoods in which they live, work and play. Here in the U.S., 
the expansion of the ``If you See Something, Say Something'' campaign 
has harnessed millions of eyes and ears as force-multipliers to detect 
and report suspicious activities.
    <bullet>  Treating the public as a key partner in counter-terrorism 
promotes greater engagement and reduced public apathy and believe 
counter-terrorism is primarily a responsibility of government.
    <bullet>  Increasing information sharing efforts between law 
enforcement and community leaders and organizations builds 
``communities of trust'' and facilitates greater cooperation and 
collaboration.
    <bullet>  Engaging citizens and communities through trainings and 
exercises teaches people to know what to look for and know how to 
respond in an emergency.
    In closing, I'd ask you to consider this:
    In January 2015, The Grand Synagogue of Paris shuttered for Shabbat 
services on Friday night following the terrorist attacks against 
Charlie Hebdo and Hyper Cacher, marking the first time since World War 
II that the synagogue was closed on the Sabbath. Following the attacks, 
10,000 police and soldiers were deployed across France to guard Jewish 
institutions against follow on attacks, an effort that, in many places, 
continues today. 
    In December 2015, New Year's Eve fireworks and festivities in 
Brussels were canceled following a terror alert warning of an imminent 
attack against the city, a month after the November terrorist attacks 
in Paris killed over 130 people.
    These are NOT the ``kind of firsts'' we wish to celebrate. . . nor 
will we tolerate; we cannot be plagued and paralyzed by the violent 
will of hate and extremism. Through programs and initiatives of trust 
and collaboration, we'll continue to pursue these efforts to ensure 
vigilance is eternal and communities and neighborhoods remain safe and 
secure; we'll continue building a culture of awareness, not a community 
of fear.
    Our strength lies in our diversity, acceptance and common 
collective goal to assemble freely in our respective houses of worship, 
without fear, intimidation or threat of violence. We've long recognized 
that an attack on one of us, is an attack on all of us. While the 
threat of terrorism remains our resolve has grown. However, our 
response will be measured, devoid of the fear and uncertainty that 
terrorism and violent extremist ideologies seek to instill.
    Time is not on our side. We're past the time for more summits, 
conferences and meetings. The pace and tempo of attacks requires swift, 
yet informed conviction and actions. We've experienced hard lessons, we 
must LEARN from them; we've developed best practices; we must SHARE 
them.
    Mahatma Gandhi once said, ``The true measure of any society can be 
found in how it treats its most vulnerable.'' I'd like to personally 
thank the Chairman and his staff for their continued leadership with 
the Commission in ensuring that the United States of America will 
forever fight for the protection and preservation of the human rights, 
safety and security of all global citizens.

    Mr. Goldenberg is Chairman and President of Cardinal Point 
Strategies and a member of the U.S. Department of Homeland Security 
Advisory Council (HSAC).
    In December 2014, DHS Secretary Jeh Johnson appointed Mr. 
Goldenberg as co-chair of the National DHS Foreign Fighter Task Force. 
He currently serves as Vice Chair of the US Department of Homeland 
Security's Faith-Based Council and as senior advisor to the 
Department's newly established Countering Violent Extremism (CVE) 
initiative.
    Before founding CPS, he played a key role in setting domestic and 
international policy for the legislation and investigation of hate 
crimes and countering violent extremism and has been an international 
thought leader in information sharing, conflict resolution, public 
safety and counter terrorism policy. He established community policing, 
hate crimes, and CVE-related programs for transnational agencies, many 
of which were adopted by governments in North America and Europe. His 
public career includes more than two decades as a former senior 
official of the New Jersey State Attorney General's Office, Director of 
the nation's 6th largest county social service and juvenile justice 
system, and as a law enforcement official who headed investigation 
efforts for significant cases of domestic terrorism, political 
corruption, and organized crime.
    Following a series of highly publicized incidents of domestic 
terrorism and hate crimes, the NJ State Attorney General appointed Mr. 
Goldenberg as the first state Chief of the Office of Bias Crimes and 
Community Relations. During his tenure, he wrote many of the model 
procedures for domestic terrorism investigations and policy framework 
for building police and community partnerships, many of which became 
models for national and international policy and legislation.
    In 2004, he spearheaded an international law enforcement mission 
for the Organization for Security Cooperation in Europe (OSCE), during 
which he worked in over 10 European nations including Ukraine, Hungary, 
Kosovo and Croatia where he assisted government agencies with 
addressing conflict and growing transnational extremism. He continues 
to remain active in the non-profit and think tank communities.
    His current and former leadership positions include: Special 
Adviser to the Chairman of Crime Stoppers, USA, the County Executives 
of America, representing 700 of the nation's largest county 
governments; Senior CT Advisor to the American Hotel and Lodging 
Association, representing over 50,000 hoteliers here and abroad; Vice 
Chair of the US Department of Homeland Security's Faith Based Advisory 
Security Council; as well as National Director of the Secure Community 
Network, the nation's first full time faith based threat and 
information sharing center. He also sits on the Board of Directors for 
several publicly traded and privately held companies. Mr. Goldenberg 
has received numerous awards including South Florida's most 
distinguished citation for valor, Officer of the Year. Goldenberg spent 
4 years long term undercover as an agent assigned to the South Florida 
Special Investigations Strike Force. His experiences have been featured 
in numerous articles and publications.Mr. Goldenberg is Chairman and 
President of Cardinal Point Strategies and a member of the U.S. 
Department of Homeland Security Advisory Council (HSAC).
    In December 2014, DHS Secretary Jeh Johnson appointed Mr. 
Goldenberg as co-chair of the National DHS Foreign Fighter Task Force. 
He currently serves as Vice Chair of the US Department of Homeland 
Security's Faith-Based Council and as senior advisor to the 
Department's newly established CVE initiative.
    Before founding CPS, he played a key role in setting domestic and 
international policy for the legislation and investigation of hate 
crimes and countering violent extremism and has been an international 
thought leader in information sharing, conflict resolution, public 
safety and counter terrorism policy. He established community policing, 
hate crimes, and CVE-related programs for transnational agencies, many 
of which were adopted by governments in North America and Europe. His 
public career includes more than two decades as a former senior 
official of the New Jersey State Attorney General's Office, Director of 
the nation's 6th largest county social service and juvenile justice 
system, and as a law enforcement official who headed investigation 
efforts for significant cases of domestic terrorism, political 
corruption, and organized crime.
    Following a series of highly publicized incidents of domestic 
terrorism and hate crimes, the NJ State Attorney General appointed Mr. 
Goldenberg as the first state Chief of the Office of Bias Crimes and 
Community Relations. During his tenure, he wrote many of the model 
procedures for domestic terrorism investigations and policy framework 
for building police and community partnerships, many of which became 
models for national and international policy and legislation.
    In 2004, he spearheaded an international law enforcement mission 
for the Organization for Security Cooperation in Europe (OSCE), during 
which he worked in over 10 European nations including Ukraine, Hungary, 
Kosovo and Croatia where he assisted government agencies with 
addressing conflict and growing transnational extremism. He continues 
to remain active in the non-profit and think tank communities.
    His current and former leadership positions include: Special 
Adviser to the Chairman of Crime Stoppers, USA, the County Executives 
of America, representing 700 of the nation's largest county 
governments; Senior CT Advisor to the American Hotel and Lodging 
Association, representing over 50,000 hoteliers here and abroad; Vice 
Chair of the US Department of Homeland Security's Faith Based Advisory 
Security Council; as well as National Director of the Secure Community 
Network, the nation's first full time faith based threat and 
information sharing center. He also sits on the Board of Directors for 
several publicly traded and privately held companies. Mr. Goldenberg 
has received numerous awards including South Florida's most 
distinguished citation for valor, Officer of the Year. Goldenberg spent 
4 years long term undercover as an agent assigned to the South Florida 
Special Investigations Strike Force. His experiences have been featured 
in numerous articles and publications.

                                 <all>




  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
